                                                       ~ ~~ ~

                                                       ~f."'"f OF

 s. DEPARTMENT OF COMMERCE

         Office of Inspector General                    ~ J.
                                                        ~"TES of "




             NATIONAL OCEANIC AND
 A TM OSP     HERI        AD   MINIS TRA TI




     Improvements Needed in the Reporting
  Performance Measures Related to Goals for
         Advancing Short- Term Warnings and
         Implementing Seasonal to Interannual
                                     Climate Forecasts

Audit Report No. FSD- 15643- 0001/September 2003




                     PUBLIC RELEASE




    Office of Audits, Financial Statements Audits Division
                                          -''"
                                             ~,.r OF c".
                                            oIi

                                                  'It          UNITED STATES DEPARTMENT OF COMMERCE
                                                               The Inspector General
                                           (1
                                            ~~r;li,.
                                            1!J                Washington. D. C.   20230

                                                                                     SEP 3 a 2003




   MEMORANDUM FOR:	                           Vice Admiral Conrad C. Lautenbacher, Jr. , USN (Ret.)
                                              Under Secretary of Commerce for Oceans and Atmosphere
                                              National Oceanic and Atmospheric Administration


  FROM:	                                      Johnnie E. Frazier


  SUBJECT:	                                  Improvements Nee        the Reporting of Performance

                                             Measures Related to Goals for Advancing Short- Term

                                              Warnings and Implementing Seasonal to Interannual

                                             Climate Forecasts
                                             Final Audit Report No. FSD- 15643- 0001

 This is our final report on select performance measures used by NOAA to support two of
 its performance goals: (1) advance short- term warnings and forecasts , and (2) implement
 seasonal to interannual climate forecasts. The goals largely reflect activities of the
 National Weather Service (NWS), National Environmental Satellite, Data, and
 Information Service (NESDIS), and Office of Oceanic and Atmospheric Research (OAR)
 and are included in the Department of Commerce FY 2001 Annual Program
 Performance Report 
               FY 2003 Annual Performance Plan , FY 2001 Accountability

 Report       and   FY 2002 Performance                    Accountability Report.


 We found that NOAA is committed to reporting outcome-oriented measures and reliable
 information, including the use of extensive verification procedures by NWS for its
performance measures relating to severe weather warnings. However, we identified
instances in which reported information was at times incomplete, inaccurate , or
unclear--often the result of inadequate explanations of and disclosures for the measures
coupled with some lapses in internal controls. Rectifying these problems would
                                                                                  ~mprove
the usefulness and reliability of this information for Congress and OMB , both of whom
rely on this data as part ofthe budget process.

In responding to the draft report, NOAA either concurred with or is taking corrective
action consistent with all of the recommendations. For each recommendation
                                                                               , NOAA
identified corrective actions taken or planned and implementation schedules. However
NOAA expressed concern that (1) the tone and tenor of the draft report was overly
negative relative to the findings and recommendations presented and (2) the sample size
used to examine performance data for tornado and flash flood lead times was not large
enough to characterize identified deficiencies as internal control weaknesses.
Nevertheless , the NWS response includes planned actions to strengthen internal controls
 and reduce the likelihood of the kinds oflapses in internal controls identified during our
 review. NOAA also suggested that we include additional discussion
                                                                        ofthe process used
 by the agency to ensure the accuracy of performance information in the report.

  Where appropriate , we have modified the report to reflect NOAA'
                                                                       s response. However
 we believe the tone and tenor of the final report is consistent with the need for NOAA to
 improve the completeness , accuracy, and clarity of performance information it reports.
 Within the appropriate sections of this report, we summarize NOAA'
                                                                          s response to our
 draft report as well as provide our comments. NOAA' s complete response is attached to
 the report as Appendix

In accordance with Department Administrative Order 213-
                                                            , please provide us with your
action plan addressing the recommendations for our review and concurrence within 60
days of this memorandum. Should you need to discuss the content of this report
                                                                                   and the
action plan, please contact me at (202) 482- 4661~ or Michael Sears
                                                                    , Assistant Inspector
General for Auditing, at (202) 482- 1934.

We appreciate the cooperation and courtesies your staff extended to us during our review.

Attachment

cc:    Jack J. Kelly, Jr.
       Deputy Undersecretary of Commerce for

         Oceans and Atmosphere


       Gregory W. Withee
       Assistant Administrator for

        Satellite and Information Services


      Louisa Koch
      Acting Assistant Administrator
      Office of Oceanic and Atmospheric Research

      William F. Broglie
      Chief Administrative Officer

      Ted David
      Acting Chief Financial Officer

      Mack Cato
      Director
      Audits , Internal Control and Information Management
                     ..........
                         ....... .....     .................................................
                                       ......
                                  .......       ..............................................
                                                 . . . ............................................
                                          ..................................................
                             ............................................................
                                             . ...........
                                                .......
                                          ..............  . ."'"  ."""'"         .......       ......................
                                                                      . .. . ..............................
                                                                                                ............
                                                                                                ... . .. .. ... ". .. .... ............
                                                                                   .. .. ". .................
                                                                    . ...........................
                                                              . . ......     .........                                        ... .........
                                                                                                                                  ........      ...
                                                                                                                                   ............ ...
                                                                                                                                                .. ...




                                         TABLE OF CONTENTS



                                                                                                                                                         Page
EXECUTNE SUMMARY

INTRODUCTION .... 


OBJECTNES , SCOPE , AND METHODOLOGY..................................


FINDINGS AND RECOMMENDATIONS

            Performance Measure: Lead Time (Minutes), Accuracy (%), and
            False Alarm Rate (FAR%) for Severe Weather Warnings for
            Tornadoes

                   Average lead time does not convey the full picture of
                   NWS performance...............................................

                   Internal controls over generating and reporting data should
                   be strengthened

                   Consistent procedures for maintaining supporting
                   documentation need to be established and enforced

                  Additional disclosures would enhance the usefulness of
                  reported results 



                  Not implementing certain quality control procedures
                  could have impacted reliability

                  Recommendations

                  NOAA Response

                  OIG Comments


    II.	   Performance Measure: Lead Time (Minutes) and Accuracy (%)
           for severe weather warnings for flash floods

                  Average lead time does, not fully capture performance. .

                 Internal controls should be strengthened
                             ......................................................
                                    ................................................
                                    ..............................................
                                  ...................................................
                                     ........
                                       .. ....
                                           ...... ....................
                                               ...........  ..........
                                                          ................
                                                       ......
                                                       .......
                                                        .... ...........
                                     ................ .........  .........
                                                                 ......    .....     """"
                                      ................................................
                                     ..............................................
                                                  ...........................
                                                              ..............    ......
                                                                              ...............
                                                                         ..........
                                                                        .........  ...........
                                                                                  ......
                                                                          ..............
                                                                            .......
                                                                        ......   ........ .....
                                                                                         ....
                                                                                        .....
                                                                                    ..... ...




                Consistent procedures for maintaining supporting
                documentation need to be established and enforced

                Additional disclosures would enhance the usefulness of
                reported results

               Not implementing certain quality control procedures
               could have impacted reliability

               Recommendations

               NOAA Response

               OIG Comments

III.    Performance Measure: Accuracy (%) of Three- day
        Forecast of Precipitation 



               Improvements are needed to more accurately measure
               the forecasting performance ....

              Additional disclosures are needed to improve
              presentation

              Recommendations

              NOAA Response

              OIG Comments

       Performance Measure: Determine the Accuracy of the
       Correlation Between Forecasts of the Southern Oscillation Index
       (SOl) and EI Nino/La Nina Events

              Usefulness of measure is hampered by limited
              inadequate discussion of results .

             Recommendations ..........................................
             NOAA Response

             OIG Comments
                                               ..............................................
                                                ...............................................
                                                 ..............................................
                                      ......................................................
                                                 .................................................
                                ..............................................................
                                     .................
                                                    ....               . .............
                                                  . ........................
                                                             ...................
                                                             . .. . ..........
                                                     .. . ........          . . . .....
                                                              .......................        ;....................

                                                                                    . ....................
                                                                              ................  ........................
                                                                                              ..............
                                                                                        . ..............
                                                                                               ...... . ...
                                                                                                . . .....
                                                                                               ........
                                                                                      .............       . .......
                                                                                                        ......
                                                                                                    .......... :...        .. .......
                                                                                                                         ..........
                                                                                                                . ..............
                                                                                                                         ....
                                                                                                                      .. ....... .......
                                                                                                                                      .. ........
                                                                                                                                               .. ..




               Performance Measure: U. S. Temperature Forecasts
               (Skill Score)

                     Performance results were calculated using different
                     time spans 





                     Additional disclosures are needed to
                     improve presentation. .... ......

                     Recommendations 


                     NOAA Response


                     OIG Comments


      VI.     Performance Measure: New Monitoring or Forecast Products
              that Become Operational Per Year (cumulative) 



                     NOAA needs a consistent definition for a
                     monitoring or forecast product

                     NOAA has no verification procedures for new products

                     Recommendations

                    NOAA Response

                     OIG Comments

      VII.    Performance Measure: New Climate Observations
              Introduced ........ 


                    Reported results are innacurate ..........

                    Measure does not convey what is being reported

                    Recommendations

                    NOAA Response .. ........ ...... ...... 


                    OIG Comments

APPENDIX I

   S. Department of Commerce                                         Final Report No. FSD- 15643- 0001
Office of Inspector General                                                                September 2003


                                    EXECUTIVE SUMMARY

The National Oceanic and Atmospheric Administration (NOAA) is charged with
assessing and predicting changes in the Earth' s environment , and protecting and
managing marine and coastal resources to ensure sustainable economic opportunities-
missions that support the Department's strategic goal of observing and managing the
Earth' s environment to promote sustainable growth. ) As such , NOAA' s performance
plans , program results , and financial information are integral components of Commerce
annual performance plans and reports submitted to meet the requirements ofthe
Government Performance and Results Act (GPRA) of 1993.

NOAA maintains seven performance goals to support the Department' s strategic goal:
(1) build sustainable fisheries , (2) sustain healthy coasts , (3) recover protected species
(4) advance short-term warnings and forecasts , (5) implementseasonal to interannual
climate forecasts , (6) predict and assess decadal to centennial change , and (7) promote
safe navigation. It has established a number of measures to gauge its success at achieving
each goal.

We conducted a performance audit of select measures that support two of these goals-
advance short- term warnings and forecasts , and implement seasonal to interannual
climate forecasts-to (1) assess the collection and reporting of NOAA performance
information in documents submitted to meet GPRA requirements , and (2) determine
whether NOAA' s internal controls are sufficient to ensure that performance data is
accurate , consistent, and reliable. Net cost of operations for the two goals for the year
ended FY 2001 was more than $1.5 billion.

                                NOAA NET COST OF OPERATIONS FY 2001
                                                (Billions)

                                                                      I!IAdvance short- term warnings and
                                                                        forecasts
                                                                      . Implement seasonal to   interannual
                                                                        forecasts
                                                                      0 Other performance goals


                   $1.

                                                             $1.43




                              $0.




I This is one of
                  three Department of Commerce strategic goals. The other two are (1) provide the
information and framework to enable the economy to operate efficiently and equitably, and (2) provide
infrastructure for innovation to enhance American competitiveness.
   u.s. Department of Commerce                                           Final Report No. FSD- /5643- 000/
   Office of Inspector General                                                               September 2003

  Over the past several years , NWS has received accolades for its collection and reporting
  of performance results. Similarily, we noted a commitment on the part of NOAA to
  report outcome-oriented measures and reliable information , including extensive efforts by
  the NWS to ensure the accuracy of performance information relating to its severe weather
  warnings. However, our review found that (1) reported performance data at times did not
  provide a complete picture of performance; (2) performance information was not always
  accurately reported , and (3) explanatory language fi:equently did not appropriately
  describe results or the limitations ofthe data. Improvements were needed for each of the
  seven measures we reviewed , as follows:

  Performance Goal: Advance short- term warnin2:s and forecasts

            1. Measure: Lead time (minutes), accuracy (%), and false alarm rate (FAR
               %) for severe weather warnings for tornadoes. For FY 2001 , NWS met
               one ofthe three performance targets for this measure-false alarm rate (73
               percent). But more significant is the fact that as currently calculated , the
               measure does not convey that for 43 percent of the tornadoes recorded
               nationally during the year, NWS issued either a warning with no lead time or
               no warning at all. The lead time of 10 minutes reported in the Department'
               FY 2001 Annual Program Performance Report/FY 2003 Annual Performance
               Plan     and the      FY 2001 Accountability Report        represents a national average.
                In addition , we found that internal controls over the measure do not preclude
                the reporting of incorrect data, and that procedures for maintaining
               documentation are inconsistent. Also , problematic is the presentation ofthe
               measures in the           FY 2001 APPR/FY 2003 APP          and the FY 2001
               Accountability Report: 
               key details-such as not explaining the use .
               estimates in some cases and the exclusion of data fi:om certain areas in
               others-limit the usefulness of the results. Finally, we found that certain data
               quality control procedures were not initially applied to all FY 2002 data-a
               condition that would have limited the reliability of the results. However, in
               response to our concern about this issue , NWS implemente~ an interim
               quality check , pending upgrades to the Advanced W ~ather Interactive
               Processing System (A WIPS), which should include a permanent data-
               checking feature.

              NOAA and NWS need to (1) augment the current measure to reflect the
              percentage oftornadoes for which the public is warned with no lead time or
              not warned at all; (2) strengthen internal controls , including requirements for
              supporting documentation; (3) implement procedures that ensure the reporting
              ofthe most accurate data; and (4) enhance the discussion of performance
             results. (See page 7.





   National Oceanic and Atmospheric Administration: Financial Statements, Fiscal Year 200/.       Audit
Report No. FSD- 14475- 0002/February 2002.
3 For FY 2001

                , the public was provided with no lead time 43% of the time , less than 10 minutes oflead
time , 18% of the time , and equal to or greater than 10 minutes oflead time 39% of the time.
  u.s. Department of Commerce                                                Final Report No. FSD- /5643- 0001
  Office of Inspector General                                                                 September 2003


          2. Measure: Lead time (minutes) and accuracy (%) for severe weather
             warnings for flash floods. While NWS met both performance targets for this
             measure , we found that-as with tornadoes-FY 2001 results do not convey
             that for 27. 2 percent of the flash floods recorded nationally, NWS issued
             either a warning with no lead time or no warning at all. The lead time of 46
               minutes reported in the Department'           FY 2001 APPR/FY 2003 APP 
           and the
              FY 2001 Accountability Report       represents a national average. 4 Also , we
               found instances in which flash flood data incorrectly included data related to
              other types of flooding and lead times and event times were inaccurately
              recorded. And again , we found that NOAA' s presentation ofthe measures in
              the FY 2001 APPR/FY 2003 APP          and the FY 2001 Accountability Report
              needed additional disclosures such as the use of estimates in some cases and
              the exclusion of data from certain areas in others. Similar to the measure
              related to tornadoes , the initial decision not to employ a type of quality control
              procedure threatened the reliability ofFY 2002 data. For this measure , we
              made the same recommendations as for the tornado measure: that NOAA and
              NWS (1) augment the current measure to reflect the percentage of flash
              floods for which the public is warned with no lead time or not warned at all;
              (2) strengthen internal controls , including requirements for supporting
              documentation; (3) implement procedures that ensure the reporting of the
              most accurate data; and (4) enhance the discussion of performance results.
              (See page 12.

          3. Measure: Accuracy (%) of three- day forecast of precipitation. This
               measure-designed to gauge how well NWS accurately predicts precipitation
              3 days in advance-does not fully reflect performance because it does not
              take into account areas where precipitation is forecasted but does not occur.
              This data limitation is not disclosed in the 
 FY 2001 APPR/FY 2003 APP;
              neither are data verification procedures nor the fact that the forecasts counted
              are for 1 inch or more of rain. NOAA should (1) note in future performance
              reports that FY 2001 results did not measure areas where precipitation was
              forecasted but did not occur; (2) state that the measure only counts forecasts
              of 1 inch or more of precipitation; and (3) give greater detail about
              verification procedures. (See page 17.

Performance Goal: Implement                   seasonal to interannual climate forecasts

          1. Measure: Determine      the accuracy of the correlation between forecasts
               of the Southern Oscillation Index (SOl) and EI Nino/La Nina events.
              This measure purports to assess the accuracy of the correlation between
              forecasts of South Pacific sea surface temperature and actual sea surface
              temperature ofthe waters connecting Darwin , Australia, and Tahiti.
              However, the measure does not demonstrate accuracy of the correlation, but
              rather proximity-that is , how closely NWS forecasts correlate with
4 For
        FY 2001 , the public was provided with no lead time 27% of the time , less than 46 minutes oflead
time , 37% of the time , and equal to or greater than 46 minutes oflead time , 36% of the time.




                                                       111
u.s. Department of Commerce                                            Final Report No. FSD- /5643- 000/
Office of Inspector General                                                                September 2003

              observed temperatures. Therefore ,    the measure-as titled and as described in
              the   APPRlAPP-does     not clearly articulate what is being assessed , and does
             not explain the correlation index or that the measure is based on cumulative
             data. We recommend that the performance measure be either eliminated or
             revised. If the latter option is chosen , NOAA should provide the necessary
             disclosures and explanations of changes in subsequent performance reports.
             (See page 20.

         2. Measure: U. S.          temperature forecasts (skill score). This measure reflects
              NWS' s success at accurately predicting temperature over the prior 48
              months. We found that while performance results for FY 2001 were
              calculated using a 48-month seasonal average , results for fiscal years 1999
             and 2000 were based on 36 months , which rendered FY 2001 data
             noncomparable with that fi:om these earlier years. And , as with other
             measures , NOAA excludes key details fi:om the measure s discussion in the
             APPRIAPP     and Accountability Report , in this case that the measure is a
             cumulative average , covers forecasts for less than half of the U. , and is
             calculated manually. Neither does NOAA explain the reported score
             decline from FY 2000 to FY 2001-detail that would likely be of interest to
             decision m3.kers and the public. NOAA should revise reported results for
            FY s 1999 and 2000 using the 48-month average and explain the change in
            subsequent APPRs; disclose that the average is cumulative; and develop and
            enforce procedures for ensuring that data is verified before it is published.
            (See page 22.

       3. Measure:            Number of new monitoring or forecast products that become
           operational per year (cumulative). This measure reports on the
           development of new products for monitoring weather or issuing forecasts. We
          found that NWS has no clear definition of what constitutes a new product or
          formal procedures for verifying the numbers of new products reported by the
          office that supplies this information-the National Climatic. Data Center.
          NOAA reported in the    FY 2001 APPRIFY 2003 APP      that it introduced 4 new
          products-its target number. However, our audit found that, depending on the
          definition used , 50 new products could have been identified as becoming
          operational in FY 2001. NWS needs to develop such definitions and
          procedures to avoid confusion over what is a new product. (See page 25.

       4. Measure:            New climate observations introduced. This measure is intended
           to record the number of new monitoring systems deployed or made
           operational during the fiscal year. The title of the new measure and its
           accompanying narrative in the             FY 2001 APPRIFY 2003 APP                 imply that
           NOAA is counting multiple climate observation systems or products , when in
           reality it is measuring the introduction of only Argo floats-free- drifting
           floats that gauge temperature and salinity ofthe upper 2 000 meters of the
           ocean. NOAA' s FY 2001 target for this measure was 120 floats , and it
           reported introducing 132. However, this number actually identifies the
           number of floats           budgeted for procurement            in the fiscal year, not deployed.
  u.s. Department of Commerce                                     Final Report No. FSD- /5643-   000 1
 Office of Inspector General                                                        September 2003


                    If NOAA plans to report only on Argo float deployments , it should revise the
                    measure and discussion accordingly and count actual deployments. If not
                    NOAA should include all new observation equipment deployed. (See page
                    27.

 The accuracy and reliability of reported performance measures is largely a function of
 adequate internal controls. NOAA management is responsible for implementing such
 mechanisms and ensuring the quality of reported information. Therefore, we believe that
 NOAA should promptly correct the identified internal control weaknesses that led to
 inaccurate , incomplete , or unclear performance reporting, and thereby enhance the
 credibility and usefulness of performance results for Congress , OMB , and other
 stakeholders.

In responding to the draft report, NOAA either concurred with or is taking corrective
action consistent with all ofthe recommendations. Within its response , NOAA identified
corrective actions taken or planned and implementation schedules. However, NOAA
expressed concern that (1) the tone and tenor ofthe report was overly negative relative to
the findings and recommendations presented and (2) the sample size used to examine
performance data for tornado and flash flood lead times was not large enough to
characterize identified deficiencies as internal control weaknesses. Nevertheless , the
NWS response includes planned actions to strengthen internal controls and reduce the
likelihood ofthe kinds oflapses in internal controls identified during our review. NOAA
also suggested that we include additional discussion ofthe process used by the agency to
ensure the accuracy of performance information in the report.

We are encouraged by the actions taken or planned by NOAA. Where appropriate , we
have modified the report to reflect NOAA' s response. However, we believe the tone and
tenor ofthe final report is consistent with the need for NOAA to improve the
completeness , accuracy, and clarity of performance information it reports. Within the
appropriate sections ofthis report , we summarize NOAA' s response to our draft report as
well as provide our comments. NOAA' s complete response is attached to the report as
Appendix I.

This is the second report issued on NOAA' s performance measures. The
first-Improvements Needed in the Reporting of Performance Measures Related to
Promoting Safe Navigation and Sustaining Healthy Coasts 
         (FSD- 14998- 0001)~was
issued in February 2003.
   s. Department of Commerce                                           Final Report No. FSD- /5643- 000/
 Office of Inspector General                                                              September 2003

                                          INTRODUCTION

The National Oceanic and Atmospheric Administration (NOAA) is charged with
assessing and predicting changes in the Earth' s environment , and protecting and
managing marine and coastal resources to ensure sustainable economic opportunities-
missions that support one of the Department of Commerce s three strategic goals:
  Observe and manage the Earth' s environment to promote sustainable growth.

Both NOAA and the Department report on the performance of NOAA programs and
activities to meet the requirements of the Government Performance and Results Act of
1993 (GPRA). GPRA seeks to improve the effectiveness , efficiency, and accountability
of federal programs by requiring agencies to set performance goals and to annually
compare actual performance against those goals and report the results. The Department
presented performance information for goals and measures considered to be critical in its
FY 2001 Accountability Report and in the more recent 
 FY 2002 Performance and
Accountability Report.

NOAA has seven goals against which to assess and report on its program and financial
performance:

         Build sustainable fisheries.

         Sustain healthy coasts.

         Recover protected species.

         Advance short-term warnings and forecasts.

         Implement seasonal to interannual climate forecasts.

         Predict and assess decadal to centennial climate change.

         Promote safe navigation.


Within each goal are measures that NOAA uses to assess the programs and activities of
its five line offices: the National Ocean Service; National Marine Fisheries Service;
Office of Oceanic and Atmospheric Research; National Weather Service (NWS); and
National Environmental Satellite , Data, and Information Service-(NESDIS). From this
assessment , NOAA generates performance results to enable Co~gress , the Office of
Management and Budget (OMB), and other decision makers to evaluate the federal
government' s investment in these programs , and help agency officials improve P!ogram
outcomes. However, performance results support these objectives only to the extent that
the data is reliable. GPRA requires agencies to verify and validate performance data to
provide assurance of its reliability. The General Accounting Office defines verification
as the "assessment of data completeness , accuracy, and consistency, and the related
quality control practices " and validation as the " assessment of whether the data is
appropriate for the performance measure. ,,6
5 The Department' s other two strategic goals are (1) to provide the information and framework to enable
the economy to operate efficiently and equitably, and (2) to provide infrastructure for innovation to
enhance American competitiveness.
6 U.
     S. General Accounting Office , July 30 1999. Performance Plans: Selected Approachesfor Verification
and Validation of Agency Peiformance Information,    GAO/GGD- 99- 139. Washington, DC: U. S. General
Accounting Office.
   u.s. Department of Commerce
                                                                       Final Report No. FSD- /5643- 000/
   Office of Inspector General
                                                                                              September 2003


   Tying Costs to Results

  NOAA' s audited FY 2001 financial statements break down the bureau
                                                                                   s total $2.

  billion net costs of operations by performance goal , as follows: build sustainable

  fisheries-- $493 million; sustain healthy coasts-- $285 million; recover protected species-­
  $164 million; advance short-term warning and forecast services-- $1.43 billion;
  implement seasonal to interannual climate forecasts-- $116 million; predict and assess
  decadal to centennial climate forecasts-- $102 million; and promote safe navigation--
                                                                                                $120
  million. ? The Department provided FY 2001 enacted budget amounts by goal in its
  2001 Annual Program Performance Report (APPR) and FY 2003 Annual Performance
              which also details departmental and bureau efforts to comply with GPRA.
  Plan (APP), 


  Together, the two sources permit analysis ofFY 2001 performance results-
                                                                            by goal-
  terms ofthe federal government' s financial investment in achieving them. Depending on
  the extent to which decision makers rely on performance information in allocating
  resources , the credibility of reported data may affect the amounts ultimately budgeted for
  a specific program.

 This report details our audit of two NOAA goals and a selection oftheir                 associated

 measures:

            Advance short- term warninl!s and forecasts

                    1. Lead time   (minutes), accuracy (%), and false alarm rate (FAR, %) for
                         severe weather warnings for tornadoes
                  . 2.   Lead time (minutes) and accuracy (%) for severe weather warnings for
                         flash floods
                   3. Accuracy (%) ofthree- day     forecast of precipitation

            Implement seasonal to interannual cl~mate           forecasts

                   1. Determine the     accuracy of the correlation between forecasts of the
                         southern oscillation index (SOl) and EI Nino/La Nina Events
                   2. U. S. temperature forecasts (skill score)
                   3. Number of new monitoring or forecast products -that become operational
                      per year (cumulative)
                   4. New climate observations introduced

These two goals are primarily supported by the programs and activities of the National
Weather Service; National Environmental Satellite , Data, and Information Service; and
the Office of Oceanic and Atmospheric Research. Over the past several years
                                                                               , NWS has
received accolades for its collection and reporting of performance results. For example




 National Oceanic and Atmospheric Administration: FinancialStatements

                                                                        , Fiscal Year 200/.    Audit
Report No. FSD- 14475- 0002, February 2002.
     u.s. Department of Commerce

     Office of Inspector General                                         Final Report No. FSD- 15643- 000/

                                                                                             September 2003


    the April 2001 issue of
                           Government Executive magazine described NWS as having
     (rJesults focused management coordinated throughout the agency and across functions
    to achieve mission success. " GAG-in its Observations on the Department of
    Commerce s Fiscal Year   1999  Annual Program Performance Report and Fiscal Year
    2001 Annual Performance Plan
                                      (June 30 , 2000)-stated that "NOAA' s existing and new
    measures were quantifiable and outcome-oriented and provided a succinct     statement of
    expected performance. " In an August 1999 letter to the Secretary of Commerce

    chairman of the Senate Governmental Affairs Committee noted that "                , the

                                                                          NWS    established
   goals and targeted performance levels that balance the competing priorities of increasing
   both the lead times and accuracy of severe warnings.
                                                          " While these reviews appropriately
   recognized NOAA' s commitment to reporting outcome-oriented measures
                                                                              , our review

   involved a comprehensive review of NOAA internal controls in place to ensure      the

   reporting of accurate and reliable performance data.


   The NWS informed us that it dedicates significant effort to ensuring the accuracy of
   performance information. For example, the NWS conducts site visits of regional offices
   and weather forecast offices and maintains documentation to verify its ability to warn the
   public. Also , a centralized tracking data base for performance information with
   automated quality controls is maintained.

  NWS' Performance Branch (within its Performance and Awareness Division) is

  responsible for verifying the accuracy and timeliness of warnings

                                                                    , forecasts and all other
  NWS services , and for promoting the importance of verification throughout,the   line
  office. NOAA uses the verified data as a baseline for establishing
  performance measures.                                               GPRA-mandated

  This audit report, the second on NOAA goals and measures 9 details our findings and
 recommendations regarding NOAA procedures for collecting, verifying, and presenting
 performance data. 





8 In its April 2001 issue
                         Government Executive Magazine
                                                          gave NWS straight As in the areas of financial
human resource , information, and physical assets management
                                                             , noting its "
coordinated throughout agency and across functions and to achieve missionresults- focused management
                                                                            success.
  National Oceanic and Atmospheric Administration: Improvements Needed
Performance Measures Related to Promoting Safe Navigation and SustaininginHealthy
                                                                                the Reporting
                                                                                      Coasts of
Report No. FSD- 14998- 0001 , February 2003.                                                  Audit
 u.s. Department of Commerce                                        Final Report No. FSD- /5643- 0001
 Office of Inspector General                                                          September 2003


OBJECTIVES, SCOPE , AND METHODOLOGY

Our purpose was to (1) assess the collection and reporting of NOAA performance
information in documents submitted to meet GPRA requirements , and (2) determine
whether NOAA' s internal controls are sufficient to ensure that performance data is
accurate , consistent, and reliable.

To evaluate the measures , the reliability of reported results , and the usefulness of
performance information , we did the following:

        Reviewed federal guidance and legislation , including GPRA; the CFO Act; OMB
        Circular A - 123   Management Accountability and Control;            OMB Circular A ­
        Preparation, Submission; and Execution of the Budget            Part 2; andGAG

        Standards for Internal Control in the Federal Government.

         Toured the weather forecast office in Sterling, Virginia.

        Interviewed NOAA officials responsible for generating, maintaining, and

        reporting performance data.

        Identified and tested internal controls.

        Subjected the data to validation and verification procedures.

        Evaluated the clarity and usefulness of explanations provided for each measure in

        the FY 2001          Accountability Report  and the FY 2001 APPRIFY 2003 APP.
        Performed a cursory review ofthe 
         FY 2002 Performance and Accountability
        Report      to see what , if any, actions NOAA had already taken to address concerns
        we raised during the course of our review.

We further tailored our audit procedures to each measure under review , as follows:

        Lead time (minutes), accuracy (%), and false alarm rate (FAR, %) for
        severe weather warnings for tornadoes. We selected a judgmental sample of
       20 weather forecast offices , and for each , assessed all the warnings issued and
       tornadoes verified during FY 2001 and the first 6 months ofFY 2002 and
       evaluated selected performance statistics for lead time , accuracy, and false alarm
       rate. Also , we reviewed supporting documentation for 20 tornadoes. From this
       sample , we noticed that the public frequently received little or no lead time with
       tornado warnings. Consequently, we obtained a national listing of all FY2001
       tornado events for which the public received warnings with lead times to
       determine the frequency in which the public was provided little or no time to take
       precautionary actions.
       Lead time (minutes) and accuracy (%) for severe weather warnings for flash
       floods. Again , using a judgmental sample of 20 weather forecast offices , we
       assessed for each office , all the warnings that were issued and verified during FY
       2001 and the first 6 months ofFY 2002;- evaluated selected performance
       statistics; and reviewed supporting documentation for 20 flash floods. Again
       from our sample , we noticed that the public frequently received little or no lead
       time with flash flood warnings. Consequently, we also obtained a national listing
       of all FY 2001 events for which the public received warnings with lead times to
     u.s. Department of Commerce                                  Final Report No. FSD- /5643­   000

     Office of Inspector General                                                     September 2003


             determine the frequency in which the public was provided little or no time to take
             precautionary actions.
              Accuracy (%) of three- day forecast of precipitation. We selected a
             judgmental sample of daily precipitation data for the' months of June , July,
             August , and September 2001. We compared the results of observed precipitation
             for each month and the correct forecasts with the overall monthly totals used to
             calculate the measure.
             Determine the accuracy of the correlation between forecasts of the southern
             oscillation index (SOl) and EI Nino/La Nina events. We independently
             verified the correlation between the forecast and actual observations of sea
             surface temperature for the past 16 years beginning October 1985 and ending
             September 2001 , and compared our findings with the reported results ofFY
             2001.
                 S. temperature forecasts (skill score). We selected a sample of quarterly
             reports containing skill scores (that is , forecast accuracy rates) for the 5 seasons
             that spanned July 2000 to September 2001 , and compared the scores in our
             sample with those used to calculate the cumulative 48-month average score
             reported in the         FY 2001 APPRIFY 2003APP.  We also evaluated and verified the
             FY 1999 and FY 2000 skill scores reported in the      APPRIAPP.
             Number of new monitoring or forecast products that become operational
             per year (cumulative). We interviewed meteorologists from NWS' Climate
             Prediction Center (CPC) who develop new monitoring or forecast products , and
             compared the number of new products they identified as becoming operational in
             FY 2001 with the results reported in the APPRIAPP.
             New climate observations introduced. We asked NOAA to tally the number of
             Argo floats (marine temperature/salinity gauges) successfully deployed in FY
             2001 , as well as the type and number of other weather observation equipment put
             in place , and compared this number against FY 2001 reported results , which
            pertain to Argo floats only.

    We did not test the reliability of computer- generated data for the perfonnance measures
    as such data was not essential to satisfying our audit objectives. . For the measures
    relating to tornadoes and flash floods , we obtained - through interviews - a high level of
    understanding of the data integrity controls over the information systems used to collect
    and report this information , and noted nothing of concern regarding the credibility of that
    data. Neither was it our purpose to determine whether these performance measures are
    the most appropriate for the bureau.

    We conducted our fieldwork from September 2002 to March 2003 at Camp Springs
    Maryland , and NOAA headquarters in Silver Spring, Maryland , and performed this audit
    in accordance with   Government Auditing Standards 
 issued by the Comptroller General of
    the United States , and under authority ofthe Inspector General Act of 1978 , as amended
,   and Department Organization Order 10- , dated May 22 , 1980 , as amended.
                                                                               , "




    S. Department of Commerce                                            Final Report No. FSD- /5643- 0001
  Office of Inspector General                                                               September 2003


                              FINDINGS AND RECOMMENDATIONS

 In general , we found that the seven performance measures we reviewed need stronger
 internal controls to better ensure the accuracy and reliability of reported results , as well as
 some revision and additional disclosures to make the results more meaningful and useful.
 While we found a commitment on the part of NOAA to report outcome-oriented
 measures and reliable information, we found that (1) reported performance data at times
 did not provide a complete picture of performance; (2) performance information was not
 always accurately reported , and (3) explanatory language frequently did not appropriately
 describe results or the limitations of the data.

 These issues are consistent with those identified during our reviews of performance
 results within NOAA and the rest ofthe Department. For the measures that assess
 tornado and flash flood warnings , we identified similar overall weaknesses and thus
 offered the same recommendations.

 Guidance on maintaining internal controls and reporting performance information is
 contained in the following:

          The Government Performance and Results Act of 1993 , Section 4 , states that
          each agency establish performance indicators to be used in measuring the
          relevant outputs , service levels , and outcomes of each program activity.

         OMB Circular A- , Part 2 Preparation, Submission, and Execution of the
         Budget requires agencies to include in their annual plans a description of how
         they intend to verify and validate actual performance. The methods " should be
         sufficiently credible and specific to support the general accuracy and reliability of
         the performance information that is recorded , collected , and reported. ,,10

     . OMB Circular A- 123 Management Accountability and Control identifies
         internal controls as the organization, policies , and procedures used by agencies to
         reasonably ensure that reliable and timely information is obtained, maintained
         reported, and used for decision making. Section II states documentation for
         transactions , management controls , and other significant events must be clear and
         readily available for examination.

         GAD Standards for Internal Control in the Federal Government        states that an
         agency s control activities must ensure that all transactions are completely and
         accurately recorded.




10 In June 2002
                  , OMB Circular A- II was revised. Identical language is now contained in Part 6
Preparation and Submission of Strategic Plans, Annual Performance Plans, and Annual Program
Performance Reports     Section 220.5.
u.s. Department of Commerce                                                     Final Report No. FSD- 15643- 0001
Office of Inspector General                                                                            September 2003




            Performance Measure: Lead Time (Minutes), Accuracy (%), and False
            Alarm Rate ll (FAR, %) for Severe Weather Warnings for Tornadoes

Measurements ofNWS' track record for issuing accurate , timely warnings as well as
false warnings provides a robust assessment of its performance in warning the public
about impending tornadoes. Moreover, NWS informed us that it makes significant
efforts to ensure the accuracy and reliability ofthe performance information it reports.
However, we found that NWS needs to expand the current measure to provide a more
complete picture of performance
strengthen its internal controls      NWS assesses its ability to warn the public about tornadoes by
                                              measuring lead time (minutes), accuracy (%), and false alarm rates
including requirements for                    (FAR %) of issued warnings.
supporting documentation
provide additional explanations             I . Lead time       is the time that elapses between vvhen a warning is
                                            , issued and the tornado      strikes. The reported performance statistic is
of the data, and take steps to                                                  all tornadoes that occurreddllrillgthe
ensure that the data is as accurate         I the average oflead times for
                                            I fiscal year.
as possible.                                I ~ Accuracy
                                                           is the percentage of times a tornado actually occurs in
                                              the area covered by the warning.
For FY 2001                 NWS met the
performance target for false	                 . False alarm rate     is the percentage oftirnes atornado warlling is
alarm rate which was                          issued but not verifil:dasijaying_ oc.C::lliie~. "


percent. It missed its target for
average warning lead time by 3

minutes (reporting a 10 minute
average as opposed to the goal of 

13 minutes), and its target for
accuracy by one percentage point

(achieving 67 percent as opposed i
to 68 percent)-a difference           the                                 Picture source: 
 NOAA

agency maintains is statistically 


insignificant and well within the standard deviation for the measure.

We evaluated ajudgmentally selected sample of20 events-including       warnings issued
supporting documentation, and related outcomes and events-recorded by 20 of the 116
                                                             12 (See
weather forecast offices (WFOs) that report on this measure.         Table 1.

A. Average lead time does not           convey the       full     picture ofNWS performance.

This measure is a useful indicator of performance , but does not fully reflect NWS' track
record for providing warnings about impending tornadoes because it does not convey the
many instances in which the public receives no advance warning-that is , it has no time
to act--or receives no warning at all.



II The false alarm
                    rate was added as a reportable measure in FY 2000 , although this data had been

collected and used internally previously.

12 There are a total of 123 WFOs , but only 116 feed this measure.

               S. Department of Commerce                                                        Final Report No. FSD- 15643- 0001
          Office of Inspector General                                                                            September 2003


          Average annual lead times for the 20 WFOs in our sample ranged from 24. 5 minutes to 0 .

          minutes , a significant disparity. For the 321 tornadoes that occurred in areas covered by

          these offices , the public received no lead time to take precautionary action in 91

          instances , or 28 percent ofthe time.


         Nationally, we found that for the 1 205 tornadoes recorded in FY 2001
                        the public received warning with lead times on only 691 occasions , or 57
                       percent of the time;
                        for 32. 5 percent ofthese occasions , the public received no warning, and
                        for the remaining 10. 5 percent of the recorded events , the public was
                       warned without any lead time;
                       the public was warned with lead times between 1 and less than 10 minutes
                        18 percent of the time; and
                       the public received warnings equal to or more than 10 minutes of lead
                                 time 39 percent ofthe time.



         One very long lead time will have a greater impact on the average than will several lead
         times of zero. For example , in a number of instances nationally, lead times were longer
         than 40 minutes. Hence , averaging the performance data for a function that has such
         across-the-board variation may not completely portray how effective NWS is at
         providing warnings because the average masks the large number of events for which
                                          there are inadequate lead times , no lead times , or no
                                                               warnings at all.
Austin, TX                  Morehead City, NC
Billings, MT                Northern, IN                       One approach the NWS could take to enhance the
Bismarck, NO                Philadelphia, P A
State College, PA           Pueblo, CO
                                                               usefulness of the results for this measure would be to
Eastern, NO                 Raleigh, NC                        provide percentages of instances in which it failed to
Glasgow, MT                 Salt Lake City, UT                 issue warnings with lead times or to issue any warning
Jackson, KY                 Tampa Bay Area,
Las Vegas, NY                                                  at all , and to set a goal to reduce those percentages.
Little Rock, AR             Tulsa, OK
Midland, TX                 St. Louis, MO
                                                               These statistics can be derived from data the agency
                            Wakefield, VA                      currently collects.


         B. Internal controls over generating and reporting data should be strengthened.



         The FY 2002 performance results for false alarm rate and accuracy contained in the 


        2002 Performance and Accountability Report 
    were incorrectly reported: the false alarm
        rate was given as 76 percent, when the correct rate was 73 percent; and the accuracy rate
        was given as 77 percent instead of76 percent. The misstatement occurred as information
        was updated and transferred from NOAA headquarters to the Department , and the
        mistake was not identified until after the report was issued.

        Except for one instance , the supporting documentation for the one event per office we
        reviewed was generally complete and consistent with information reported, as well as
        with tornado data maintained in NWS' database: in the one exception , the event time for
        a tornado reported by a WFO was incorrectly entered into the database , which resulted in
        a lO-minute lead time being inaccurately assigned to this event. The error increased the
    S. Department of Commerce                                    Final Report No. FSD- 15643- 0001
  Office of Inspector General
                                                                                   September 2003


  average lead time for all tornado warnings at this WFO for FY 2001 to 2. 5 minutes when
  it should have been 0 minutes. While this deficiency did not impact national results for
  FY 2001 , it revealed a potential internal control weakness , thus leaving open the
  possibility for material errors (e. , significant variances) at specific offices.
                                                                                    If the entry
  of incorrect data into the database became commonplace as opposed to the exception
                                                                                             , the
  credibility of national results could be adversely impacted.

  Consequently, NWS needs to implement procedures to guard against the potential for
  material error, such as (1) conducting independent spot checks of supporting
  documentation against reported data at the WFO , regional offices , or headquarters
                                                                                      , or
  (2) requiring attestations from each WFO meteorologist- in-charge as to the accuracy of
  data submitted by the office.

 C. Consistent procedures for maintaining supporting documentation need to
     established and enforced.

 Two WFOs could not readily provide documentation we requested, and we found that the
 offices were uncertain about how long they should maintain such records , largely because
 of conflicting guidance. One office explained that it retains actual tornado warnings on
 file for " a limited period. " Another office stated that-consistent with the Weather

 Service Operations Manual Chapter C- , section 5. 57-it retains records for 2 years.

 WFO staff told us that NWS has been revising its policies and procedures , but that new
 guidelines do not specify how long the offices should retain documentation. Thus , the
 inconsistency in available documentation persists.

 D. Additional disclosures would enhance the usefulness of reported results.

NOAA' s presentation of this measure implies that it represents data from the entire
country, when in fact it does not include results for Hawaii and Puerto Rico. Hawaii and
Puerto Rico are not included because in the past NWS did not have the systems capability
to capture this data and the infrequency of events in these locations. We believe
however, that decisionmakers/stakeholders should be made aware that reported results
are not all- inclusive. In addition, the NWS frequently uses estimates as opposed to the

actual times a tornado occurs , a fact that is not disclosed.


NW-8 states that time estimates are necessary and reasonable when spotters are
unavailable or times reported by various sources conflict. In these situations
                                                                               , NWS
arrives at an estimate based on past experience and available weather forecast data. We
agree that the use of estimates is reasonable under certain circumstances , but that their
use should be clearly disclosed so that the reader fully understands the limitations
associated with reported results.

E. Not implementing certain quality control procedures could have impacted
   reliability.

NWS' Performance Branch at one time had a staff member who provided quality control
checks of performance data submitted by the WFOs. However, the quantity of data
  u.s. Department of Commerce                                 Final Report No. FSD- 15643- 0001
  Office of Inspector General
                                                                               September 2003

  became too voluminous for a single individual to handle , and in December 2001 , NWS
  suspended the checks indefinitely.

  In transitioning from manual to automated quality controls , it developed two automated
 procedures , referred to as Rule 1 and Rule 2 , to ensure accuracy of performance
 information and provide WFOs with real- time feedback when errors are detected in
 warnings. Rule 1 , an automated procedure to check for warning coding and format
 errors , was implemented in January 2002. Rule 2 , the second of two temporary data
 modifications pending upgrades to the Advanced Weather Interactive Processing System
 (A WIPS) to screen out inappropriate data and thus improve quality control , was not
 implemented. After much debate about the potential effects of Rule 2 on performance
 results , NWS decided not to implement it and thus provided unedited preliminary
 numbers to NOAA' s chief financial officer. We brought this to the attention ofthe
 deputy chief financial officer for NWS. NWS( subsequently implemented Rule 2.

 We commend NWS management for promptly addressing the need for additional quality
 control procedures. NWS informed us that plans are in place to upgrade A WIPS
 software to screen out inappropriate data. Specifically, new software to be released in
 December 2003 will allow the tracking of warnings by event number and identify
 warnings as new or corrected. Also , quality control checks have been added to the

 software that generates warnings. These checks will include safeguards to ensure the

 proper coding and formatting of warnings. We believe that , consistent with other

 priorities , the software should be upgraded to ensure the data collected is accurate as

 well.


 F. Recommendations


The Under Secretary of Commerce for Oceans and Atmosphere should ensure that

NOAA does the following:


            (1) Provides performance data to reflect the percentage of events in which the
                public is not provided a warning in time to take p~ecautionary actions.

            (2) Strengthens internal controls over performance reporting, to include a
                policy for maintaining accurate supporting documentation and procedures
               for reconciling data prior to reporting.
           (3) Revises the presentation of the measure to include all appropriate
               disclosures to make the discussion of results more clear and meaningful.

           (4) Takes other appropriate actions-such as upgrading systems and
               software-to facilitate and ensure the reporting of accurate data.
G. NOAA Response

In response to the draft report , NOAA concurred with all four recommendations
identified corrective actions taken or planned , and provided target completions dates.
   s. Department of Commerce                                Final Report No. FSD- 15643- 0001
 Office of Inspector General                                                 September 2003


NWS will develop a new performance measure that augments the current set of
performance measures. In addition, both NOAA Headquarters and NWS will strengthen
internal controls to reduce the likelihood of reporting inaccurate performance data. NWS
will improve the disclosures of quality and sources of data in future reports containing
performance information. Also , the NWS provided information on future efforts to
automate quality controls of its performance data. A software upgrade , scheduled for
December 2003 , will include a capability to allow the improved tracking of warnings. In
addition , quality control checks to ensure the proper coding and formatting of warnings
have been added to the software that generates warnings.

In the response , NWS expressed concern over the sample size used to examine
performance data for tornado lead times and recommended we modify the discussion of
agency efforts to implement quality controls over the performance data. NWS described
the sample size to identify an internal control weaknesses as small and not representative.
Nevertheless , NWS stated that it will reemphasize the need for accurate data and develop
a process to spot-check data for accuracy. NWS recommended that we reference the
implementation of an automated procedure to check for warning coding and format
errors, Rule 1 , in January 2002 and qualify the wording regarding the suspension of
quality control checks.

H. OIG Comments

We commend NOAA and the NWS for the corrective actions taken and planned.
believe these actions demonstrate a commitment to the reporting of reliable performance
data. Where appropriate , we have modified the report to reflect NOAA' s response. The
modifications included: (1) discussing the NWS implementation of Rule 1 in January
2002 , (2) clarifying the initial decision not to implement Rule 2 , and (3) providing
additional discussion of planned automated quality control upgrades. With respect to the
NWS concern over sample size , we believe the report makes it clear that the identified
problem was an exception and that we do not project this error over the population of
tornado events.
   u.s. Department of Commerce
                                                                      Final Report No. FSD- 15643­
 0001
   Office of Inspector General

                                                                                            September 2003




  II. Performance Measure: Lead Time (Minutes) and Accuracy (%) for Severe

        Weather Warnings for Flash Floods

                                             NWS assesses its ability to warn the public about flash

  For FY 2001 , NWS met its accuracy         floods by measuring lead time (minutes) and accuracy

  goal of 86 percent , and exceeded its      (%) of issued warnings.

  lead time goal of 45 minutes by 

  minute. NOAA indicated in the 

                                             . Lead time    is the time that elapses between when the
                                             warning is issued and the flash flood strikes.
  2001 APPRIFY 2003 APP 
    that            this statistic, NWS averages the lead times
                                                                                            roget
                                                                                         roran flash

  performance results tend to be higher      floods that occur during a given year

  when the number of events is above

                                             . Accuracy is    thepercentageoftimesaflashfJood
  average In a gIven year.                   actually oc(:~rr:eq.   thew~i!J    a,rea;

 We reviewed a judgmentally selected
 batch of warnings , subsequent events
 and related supporting documentation
 from 20 of the 116 WFOs that report
 for this measure (Table 2).

 A. Average lead time does not fully                       Flash flood races acfossroad .
      capture performance.                                    Picture SOUrce:   NOAA


 As with tornadoes , we believe that averaging lead times to quantify performance does not
 present a fully accurate picture ofNWS' track record for warning the public about
 impending flash floods because it does not convey the many instances in which people
 are either warned without lead time or not warned at all.




                                                     Albuquerque, NM             Flagstaff, AZ
                                                     Amarillo, TX                Grand Rapids, MI
Nationally, we found that for the 2 779 flash        Billings, MT                Great Falls, MT
floo~s recorded in FY2001 , the public               Birmingham, AL              Kansas City, MO
received either no warning or a warning with         Boston, MA                  Morehead City, NC
                                                    State College, PA            Nashville, TN
no lead time 27 percent of the time: the            Wilmington , OH              Philadelphia, P A
public received between 1 and less than 46          Quad Cities, IA              Portland, ME
minutes oflead time , 37 percent ofthe time
                                                    Dodge City, KS               Riverton, WY
                                                    Eastern , ND                 Wakefield, VA
and equal to or greater than 46 minutes of lead
time , 36 percent of the time.
 u.s. Department of Commerce
                                                            Final Report No. FSD- 15643- 0001
 Office of Inspector General
                                                                             September 2003


 On a number of occasions , the WFOs provided warnings with lead times of more than 5
 hours , which-when factored in with other, shorter lead times-skews the
                                                                          average
 upward , thus masking the many instances in which there were no warnings
                                                                          , no lead
 times , or lead times of only a few minutes.

Consequently, NWS could enhance its presentation of results by providing the
percentages of instances in which flash floods occurred without any lead time or with no
warning, and should set as a goal , its success at reducing these percentages. The required
statistics can be derived from data already being collected by NWS.

B. Internal controls should be strengthened.
As is the case with tornado warning data, NWS headquarters has personnel and
procedures for verifying flash flood information. However, we identified data gathering
weaknesses that suggest the need to improve internal controls. We note that the WFOs
should be the first line in the verification process-ensuring accuracy by diligently
determining whether and when an event occurred and properly documenting their
observations , as the data they report impacts all statistics provided under the measure.
Beyond that, NWS must augment current internal controls to eliminate the following
problems:

       Mixing of flood data in the flash flood database. NWS defines a flash flood as
       a flood that occurs within 6 hours of the causal event (e. , rainfall). The
       performance measure is meant to include only flash floods; however, we
       identified 4 instances of 20 in which WFOs counted regular floods as flash floods.
       Three of the four events occurred in NWS' Eastern Region , where we understand
       categorizing between floods and flash floods has been an issue for many years.
      The mixing of flood and flash flood data-and the inconsistencies it suggests in
      data gathering among the regions-undermines the reliability of nationally
      reported performance results for this weather event. NWS informed us that on
      August 6 , 2001 , it issued a policy prohibiting issuance of flash flood warnings for
      general area flooding. NWS further stated that with the issuance ofNWS
      Instruction 10- 1605 on January 6 2003 , NWS established a policy to include only
      flash flood warnings and event in the NWS flash flood verification program.

      Incorrect event times. After NWS issues a warning, it tries to determine
      whether the event in fact occurred and , if so , how much advance warning time the
      public received. We found that one WFO recorded an event as occurring at 4:30
           , while supporting documentation (confirmed in discussions with WFO staff)
      indicated that the event actually occurred at 4:25 p.
      time.
                                                            -a   loss of 5 minutes in lead


      Incorrect lead times. We identified one instance in which the WFO tied a single
      flood event to two prior flash flood warnings , and thus incorrectly reported lead
      times of 4 minutes and 179 minutes , when in reality it was zero.
   u.s. Department of Commerce
   Office of Inspector General
                                                                   Final Report No. FSD- I5643- 0001
                                                                                     September 2003


           Warning mistakenly issued. A WFO recycled a previously issued warning but
           failed to change the warning area designated on the original warning document to
           the area covered by the subsequent event. As a result
                                                                 , counties not at risk for the
           severe weather event were erroneously notified of its approach
                                                                              , and the WFO' s
           false alarm rate was negatively impacted.

  While none of these internal control deficiencies significantly impacted nationally
  reported results , they do leave open the possibility for material errors in the future. NWS
  must implement procedures to guard against this possibility.

  C. Consistent procedures for maintaining supporting documentation need to be
      established and enforced.

  As with tornado warnings , we found that supporting documentation for flash floods was
 generally complete and consistent with reported information
                                                                   , but that there was
 uncertainty among the WFOs about how long to maintain supporting documentation
 (i. , 1 year or 2), and insufficient procedures for storing and later retrieving electronic
 records. As a result , the records we requested for two events were not readily available.
 The confusion appears to be prompted by the anticipated revision ofNWS procedures.
 Current guidance (see 
    Weather Service Operational Manual Chapter C-
 calls for records to be retained for 2 years. NWS personnel informed us that, section
                                                                                     the new5. 57)
 guidelines , still in draft form, do not specify the length of time offices should retain

 documentation.


 D. Additional disclosures would enhance the usefulness of reported results.

 As was the case with tornado warnings , the presentation of this measure implies that it

 represents data from the entire U. , when in fact it does not include results for Alaska

 Hawaii , Puerto Rico , Guam , and U. S. Virgin Islands
                                                        , and ftequently uses estimates of

 event times.



NWS reportedly excludes these states and territories because it does not have the

communications capability to gather this data ftom them
                                                         , and because of the historical

inftequency of flash floods in these locations. Alaska, Hawaii

                                                                 , and Puerto Rico
however, had a significant number of flash floods during FY 2001. Regardless
reader should be made aware that reported results are not all-                    , the
                                                               inclusive , and NWS should
specify the excluded areas. 

NOAA states that time estimates are necessary and reasonable when spotters are
unavailable or times reported by various sources conflict. In these situations
develops an estimate based on past experience and available weather forecast, NOAAdata.
agree that the use of estimates is reasonable under certain circumstances. However
believe NOAA should clearly state when estimates are used in place of actual times, we
that the reader fully understands the limitations associated with the reported results. , so
   u.s. Department of Commerce
                                                                Final Report No. FSD- 15643- 0001
   Office of Inspector General
                                                                                    September 2003


   E. Not implementing certain quality control procedures could have impacted

      reliability.


  NWS' decision not to implement certain quality control checks in December 2001 (see
  page 10), impacted flash flood data collection as well. NWS implemented Rule 1
                                                                                    , an
  automated procedure to check for warning coding and format errors , in January 2002.
  With the implementation of Rule 2 , before the final FY 2002 numbers were calculated
  the FY 2002 results reported for flash flood lead times were corrected with a reduction of
  4 minutes. Weare encouraged by the prompt action NOAA management took to restore
  quality control procedures.

  As noted earlier, plans are in place to upgrade A WIPS software to screen out
  inappropriate data. We believe that , consistent with other priorities
                                                                         , the software should
  be upgraded to ensure accurate data as well.

 F. Recommendations

 The Under Secretary of Commerce for Oceans and Atmosphere should ensure that

 NOAA does the following:


             (1) Provide performance data to reflect the percentage of events in which the
                 public is not provided with a warning in time to take precautionary
                 actions.

             (2) Strengthen internal controls for the performance measure , to include a
                 policy for maintaining accurate supporting documentation and procedures
                 for reconciling data prior to reporting.

            (3) Revise the presentation and all appropriate disclosures to make the
                discussion of results more clear and more meaningful.

            (4) Take other appropriate action-such as upgrading systems       and    software-
                to facilitate and ensure the reporting of accurate data.

G. NOAA Response

 In response to the draft report , NOAA concurred with all four recommendations
 identifying corrective actions taken or planned and target completions dates. NWS stated
that it will develop a new performance measure that augments the current set of
performance measures. NWS will strengthen internal controls to reduce the likelihood
of reporting inaccurate performance data. Also , NWS will improve the disclosures of
quality and sources of data in future reports containing performance information.
Additionally, NWS provided information on future efforts to automate quality controls of
its performance data. The NWS noted that a software upgrade , scheduled for December
2003 , will include a capability to allow the improved tracking of warnings.
                                                                             In addition
 u.s. Department of Commerce                                Final Report No. FSD- 15643- 0001
 Office of Inspector General
                                                                             September 2003

 quality control checks to ensure the proper coding and formatting of warnings have been
 added to the software that generates warnings.

Also, in the response , NWS stated that it had already taken actions to strengthen its
internal controls to ensure the reporting of accurate data. NWS stated that it had already
implemented a policy prohibiting issuance of flash flood warnings for general area
flooding on August 6 , 2001. On January 6 , 2003 , NWS issued a policy to include only
flash flood warnings and events in the NWS flash flood verification program. Also
NWS recommended that we reference the implementation of Rule 1 , an automated
procedure to check for warning coding and format errors in January 2002 and qualify the
wording regarding the suspension of quality control checks by NWS.

H. OIG Comments


We commend NOAA and the NWS for the corrective actions taken and planned.
believe these actions demonstrate a commitment to the reporting of reliable performance
data. Where appropriate , we have modified the report to reflect NOAA' s response. The
modifications included: (1) clarifying NWS' initial decision not to implement Rule 2
and (2) providing additional discussion of planned automated quality control upgrades.
With respect to the NWS comments regarding policies that have been put into place to
address the issue about including flood data with flash flood data, we have included
references to these actions within the report.
          u.s. Department of Commerce                                                  Final Report No. FSD- 15643- 0001
          Office of Inspector General
                                                                                                           September 2003


      III.        Accuracy (%) of Three- day Forecast of Precipitation

      NWS' Hydrometeorological Prediction Center (HPC) routinely prepares and distributes
      forecasts of precipitation for the contiguous United States.

    To gauge how well NWS performs this activity, HPC measures how often (in percent)
    the Weather Service accurately forecasts precipitation 3 days in advance of the
    anticipated event and sets an annual goal for improving its success rate from one year to
    the next. HPC calculates the accuracy rate by dividing the area (in square kilometers)
    where precipitation was forecasted and observed by the total area where precipitation was
    observed.

    Figure 1: Accuracy (%) of3- Day                       Forecast of Precipitation-Current and Revised
    Measures




 H= Area where precipitation was forecasted and observed

 Current Measure                                                 Revised Measure-- the Threat Score
 =H /0                                                      =H/(F+O-
For FY 2001 , those areas were 8. 079 million square kilometers (area forecasted and
precipitation observed) divided by 41. 77 million square kilometers (total area of observed
precipitation). Consequently, NOAA reported for fiscal year 2001 an accuracy rate of 19
percent in the FY 2001 APPRIFY 2003 APp. 13' its target for the year was 22 percent.

13 NOAA and the Department also reported this measure in the 

                                                                              FY 2002 Performance 
    Accountability
Report.       NOAA explains in the       FY 2001 APPRlFY2003 APP           that drought conditions are highly correlated
to lower performance scores for precipitation.
    u.s. Department of Commerce                                     Final Report No. FSD- 15643- 0001
   Office of Inspector General                                                        September 2003

  To assess the accuracy ofthe reported results , we selected ajudgmental sample ofHPC'
  daily quantitative precipitation logs for June , July, August , and September of2001.
  also compared the totals for each month with those used by HPC to calculate the
  measure. We assessed the usefulness of the measure and consideration of areas in which
  precipitation was forecasted but not observed.

  A. Improvements are needed to more accurately measure the forecasting

     performance.


  This measure is of limited usefulness because it does not take into

  account areas where rain is forecast but does not occur (see Figure

   1), but only considers areas where precipitation occurs (whether

  forecasted or not). Therefore , it does not fully reflect NWS' ability

  to forecast precipitation 3 days in advance.


 HPC management informed us that it had requested replacement of

 the current measure with a more useful one , called the "threat

 score " which takes into account areas where rain was correctly

 forecasted , incorrectly forecasted, or not forecast at all but did occur.

 NWS has indicated that it decided to replace the measure in
 December 2001.

  A NWS official confirmed that the new measure was approved in                  Measuring rainfall
                                                                                 Source: NOAA Photo Library
 January 2003 by the Under Secretary of Commerce for Oceans and
 Atmosphere and NOAA Administrator. We concur with NWS'
 action to revise this measure , and note that NOAA must explain the
 change when the new measure is used in future performance reports.

B. Additional disclosures are needed to improve presentation.

NOAA needs to provide additional explanations in the following areas to make the

discussion of this measure more useful:


Data limitation. The       discussion of data limitation in the   FY 2001 APPRIFY 2003 APP
does not disclose that (1) the results do not include the area where rain was forecasted but
did not occur, and (2) the forecasts counted in the measure are for 1 inch or more of
precipitation.

Data verification. The       FY 2001 APPRIFY 2003 APP  states that " all data are examined
for accuracy, and quality control procedures are applied " but provides no specifics
describing the procedures HPC uses to verify accuracy-such as checking for errors and
eliminating duplicates. Adequate explanation of quality control procedures helps readers
determine how reliable the data is.




                                                           1~
 u.s. Department of Commerce
                                                            Final Report No. FSD- 15643- 0001
 Office of Inspector General
                                                                             September 2003




 C. Recommendations


 The Under Secretary of Commerce for Oceans and Atmosphere should ensure that
 NOAA in subsequent reports

            (1)    notes that the FY 2001 results did not reflect areas where precipitation
                   was forecasted but did not occur;

            (2)    states that the measure gauges forecasts of 1 inch or more; and

            (3)    provides specific examples of data verification procedures.

D. NOAA Response

In response to the draft report, NOAA concurred with all three recommendations
identifying corrective actions taken or planned and target completions dates. NWS noted
that it had decided to replace this measure in December 2001 with a more useful measure
entitled "threat score. " This new measure will be reported in the NOAA FY 2003 APPR.
Subsequent reports will indicate that this measure gauges forecasts of one inch or more of
precipitation and detail specific verification procedures for this measure.

E. OIG Comments

Weare encouraged by the NWS actions taken and planned with respect to this measure.
  u.s. Department of Commerce                                          Final Report No. FSD- 15643- 0001

  Office of Inspector General                                                               September 2003




 IV. Determine the Accuracy of the Correlation Between Forecasts of the Southern

     Oscillation Index (SOl) and EI Nino/La Nina Events 


 Because ocean temperatures and circulation patterns influence the
 atmosphere , NOAA gathers sea surface temperature ITom buoys,
 ships , and satellites to help formulate its seasonal and interannual
 forecasts. Southern oscillation is an atmospheric phenomenon that
 greatly influences this process.

 In both the   FY 2001 APPRIFY 2003 APP           and the   FY 2002

 Performance                             NOAA purports to assess
                      Accountability Report,

 the accuracy of the correlation between forecasts of South Pacific
 sea surface temperature and actual sea surface temperature
 connecting Tahiti and Darwin. The measure consists of 16 years of
 cumulative forecast data and observed actual sea surface                           In October 1998, cold La Nina water
 temperatures. However, the measure does not demonstrate                            spans most of the equatorial Pacific
                                                                                    following the strong EI Nino of the
 accuracy, but rather proximity-that is , how closely NWS                           previous years.   Source:   NASA
 forecasts correlate with observed temperatures.

For FY 2001 , NOAA reported meeting its target correlation index of . 85. We
independently tested the correlation between the forecast and actual sea surface
temperatures for the 16 years beginning October 1985 and ending September 2001 , and
generated a correlation index of . , confirming NOAA' s reported results.

A. Usefulness of measure is hampered by limited, inadequate discussion of results.

NOAA does not clearly articulate what is being measured and does not provide enough
pertinent discussion to make the reported information useful and meaningful. The
presentation ofFY 2001 data in the   APPRIAPP    does not disclose that the measure is
cumulative and includes 16 years of data, and does not explain the correlation index
  85). Understanding this index is essential to correctly interpreting the measure and
putting NWS' performance in context. Without adequate explanation , the data
accuracy and reliability is open to question.

The title of the measure is incorrect as well. The data collected represents a relationship,
not the accuracy of forecasts: Officials at NWS' National Centers for Environmental
Prediction (which stores the data) stated that a more appropriate title would be
 Determine the correlation ofthe forecasts ofthe Southern Oscillation Index (SOl) and
EI Nino/La Nina Events.



14 The surface air pressure differences observed between Tahiti and Darwin
                                                                              , Australia, known as the
Southern Oscillation Index (SOl), are strongly linked to El Niiio and La Nina. The SOl is frequently used
as a convenient, simple , and reasonably accurate tool to monitor the status of El Nino and La Nina.
Niiio is the warm phase of the Southern Oscillation, and and La Nina is the cold phase of the Southern
Oscillation.
                                                   , "




 u.s. Department of Commerce                                Final Report No. FSD- 15643- 0001
 Office of Inspector General                                                 September 2003

 In response to our concerns , NOAA enhanced the measure s explanation in the     FY 2002
 Performance        Accountability Report stating that For the measure on correlation
 accur~cy, the FY 2002 correlation was again computed using the past fifteen years of
 monthly values of forecast." Further, officials at the National Centers for Environmental
 Prediction are receptive to eliminating this measure from future annual performance
 reports , but retain it for internal reporting purposes.

 B. Recommendations

The Under Secretary of Commerce for Oceans and Atmosphere should ensure that

NOAA takes the following actions:


        (1) Remove the performance measure or revise the title and include appropriate
            discussion in future performance reports.

        (2) If the measure is revised, include necessary disclosures and explanation of
             changes in the presentation in future APPRs.

C. NOAA Response

In response to the draft report, NWS concurs with the two recommendations. NWS will
amend the title of the measure and expand the explanation and disclosures for the
measure in the FY 2003 APPR. Also , new performance measures are being evaluated for
the NOAA climate program.

D. OIG Comments


We commend NWS for the actions it is taking with respect to this performance measure.

          u.s. Department of Commerce                                         Final Report No. FSD- 15643- 0001
          Office of Inspector General                                                                    September 2003



          V. U. S.   Temperature Forecasts (Skill Score)

        This performance measure gauges NWS' skill at predicting temperature over the past 48
        months against the random chance of being correct.

      NOAA' s target score since FY 1999 has been 20 (on a scale of -50 to +100), 15 as
      reported in the FY 2001 APPRIFY 2003 APP      and FY 2001 Accountability Report.
      NOAA reported surpassing its target in fiscal years 1999 and 2000 , reporting scores of23
      and 25 , respectively. For FY 2001 , NOAA reported a skill score of20 and thus met its
      target.

                                                               We assessed the accuracy of the
                                                               reported results by looking at five
                                                               seasons from the period beginning July
                                                               2000 and ending September 2001 , and
                                                               comparing the skill scores in our
                                                               sample with those NOAA used to
                                                               calculate the cumulative average over
                                                               48 months. Also , we compared the
                                                               actual skill scores for FY 1999 and FY
                                                               2000 with the reported results in the 


                                                               2001 APPRIFY 2003 APP 
   to determine
                                                               whether there was consistency in
NWS temperature gauge.                                       I reporting.
      NOAA
Source:




    A. Performance results were calculated using different time spans.

    Skill scores for FY 1999 and 2000 were calculated using a 36-month average-NWS'
   standard prior to FY 2001 , when it was changed to 48 months. ~owever, nowhere in
   either the      FY 2001 APPRIFY 2003 APP 
             or the FY 1999 , FY 2000 , and FY 2001
   Accountability Reports 
              is there mention of the monthly average used in the calculation , or
   that the average has been changed. Because reporting periods are not comparable
   readers cannot analyze the data for trends , and the usefulness of the results is therefore
   limited.

   When the actual FY 1999 and FY 2000 scores are recalculated using the 48-month
   average , the numbers reported for those years are misstated: in FY 1999 by 15 percent
   (the score was 19. 88 rather than 23) and in FY 2000 by 7 percent (the score was 27 rather
   than 25). 


   15
     NOAA uses the Heidke skill score to calculate this measure-considered the standard for forecasting by
   the scientific community. Based on Heidke s scale of -50 to + 100 , when forecasters match a random
   prediction the score is zero. Anything above zero shows positive skill in forecasting. Given the difficulty
   of forecasting temperatures in advance , a skill score of20 is considered quite good.
   u.s. Department of Commerce
                                                                             Final Report No. FSD- 15643- 0001
   Office of Inspector General
                                                                                                    September 2003


  B. Additional disclosures are needed to improve presentation.
  NOAA' s presentation ofthe measure in the    APPRIAPP     does not provide sufficient
  discussion to give the reader a clear understanding of the reported results:

        NOAA does not reveal that the score covers forecasts for only about 40 percent of the
         S. The measure s title implies that the score covers the entire nation.


       NOAA does not explain the decline in skill score from FY 2000 to FY
                                                                              2001-detail
       that would likely be of interest to decision makers and the public. However
                                                                                   , NOAA
       took steps to address this concern in the Department's 

                                                                           FY 2002 Performance 

       Accountability Report                noting that "NOAA
                                                    Weather Service missed the target for the
       year-skill of seasonal prediction is influenced by the strength of predictors
                                                                                     , EI Nino
       being one. The EI Nino pattern experienced in FY 2002 was weak-
                                                                            to-moderate
       resulting in reduced overall accuracy of climate forecasts for the year.

      The results are calculated manually and there are no written procedures for verifying
      the calculations. Such procedures would help prevent the reporting of inconsistent or
      inaccurate performance data. Climate Prediction Center officials stated that written
                                                   Station Duty Manual which contains
      verification procedures could be added to the 


      internal procedures used by meteorologists for developing their operational products.

Finally, as mentioned earlier, NOAA did not disclose in the                 APPRIAPP           that the skill
score is a cumulative average of the past 4 years. It has since responded to this concern
by noting in the Department's 

                                                FY 2002 Performance   Accountability Report           that " (tJhe

end of the year actual (score J represents a running average of mean score for the previous
forty-eight months.

C. Recommendations


The Under Secretary of Commerce for Oceans and Atmosphere should ensure that
NOAA takes the following actions:

           (1) Revise reported results for FY 1999 and FY 2000 and provide an explanation
               ofthe change from 36 to 48 months when reporting results for this measure in
                subsequent APPRs.



              does not cover the entire                 u.s.
          (2) Disclose in APPRs that the measure is a cumulative average of 48 seasons and


          (3) Develop and enforce procedures for ensuring that performance data is
              reviewed for accuracy prior to its inclusion in the APPR.
  u.s. Department of Commerce
  Office of Inspector General
                                                           Final Report No. FSD- 15643- 0001
                                                                            September 2003



 D. NOAA Response

 In response to the draft report, NWS concurred with all the recommendations. NWS
 stated that (1) FY 1999 and FY 2000 results have been recomputed based on a 48-month
 cumulative average and will be provided in subsequent reports; (2) subsequent reports
 containing performance information will contain better explanations of the measure; and
 (3) the NWS Climate Prediction Center has already taken action to ensure the accuracy of
the data, including improved quality control procedures and additional review of data
prior to inclusion in subsequent reports. NWS states that its plans to improve its
explanation of the measure meets the intent of the draft report recommendation to revise
the title of the performance measure or consider use of a new measure.

E. OIG 
   Comments

We commend NWS for the actions it is taking or plans to take with respect to this
performance measure. We agree that the NWS actions are consistent with the intent of
the recommendations and subsequently dropped the draft report recommendation to
revise the title of the measure or create a new measure.
           u.s. Department of Commerce                                      Final Report No. FSD- 15643- 0001
           Office of Inspector General                                                        September 2003



           VI. Number of New Monitoring or Forecast Products that Become Operational
                Per Year (cumulative)

           This performance measure reports new products for monitoring weather and development
           of new forecasts. NOAA reported in the     FY 2001 APPRIFY 2003 APP 
           that it issued four
           new products-its target number-in fiscal year 2001: (1) the Numerical Model Forecast
           Evaluation Product , used to develop 5- , 10- , and 15- day forecasts; (2) a product that
           monitors the Arctic Oscillation phenomena; (3) the heat index forecast product; and (4) a
                                                                        new wind chill forecast product.
                ~~ Wind Chill Chart 	                                We interviewed the meteorologists
                                                                     from NWS' Climate Prediction
                                                                     Center (CPC) who developed the
                                                                     monitoring/forecast products that
                                                                     became operational in FY 2001 , and
                                                                     examined what procedures-

                                                                    any-were in place for verifying the
                                                                    accuracy of the results NOAA
                                                                    reported. We learned that
                                                                    depending on the definition used for
                                                                    a new product , the actual number of
                                                                    new products that became
                                                                    operational in FY 2001 could have
NWS Wind Chill Temperature Index	
     NWS
Source:
                                                                    been significantly understated in the
                                                                    APPRIAPP.


          A. NOAA needs a consistent definition for a monitoring or forecast product

          Our audit found that there was no single , consistent definition for a new product at CPC.
          Depending on the definition used, 50 new products could have been identified as
          becoming operational in FY 200l-not 4 , as reported in the     FY 2001 APPRIFY 2003
          APP.    To ensure accurate reporting, NOAA needs to develop and disseminate such a
          single , consistent definition of "new product." NWS indicated that it will implement an
          improved definition of a new product and that this will eliminate the confusion over what
          should be considered a new product.

          B. NOAA has no verification procedures for new products.

          NOAA has no formal procedures for verifying the new product numbers submitted by
          CPC and the National Climatic Data Center (NCDC). NOAA simply notes in the
          APPRIAPP      that "products are reported to NOAA management at quarterly reviews " and
          in the 
 FY 2001 Accountability Report that " (p )roducts are reported and reviewed on a

          quarterly basis.
    S. Department of Commerce                                    Final Report No. FSD- 15643- 0001
 Office of Inspector General                                                      September 2003

 Clear, consistently applied verification procedures ensure that only valid and useful
 performance data is reported and that the data is reliable. CPC officials stated that
 written verification procedures could be added to the 
 Station Duty Manual.

 C. Recommendations


 The Under Secretary of Commerce for Oceans and Atmosphere should ensure that
 NOAA develops procedures to verify the number of new monitoring/forecast products
 that become operational annually before reporting the results.

D. NOAA Response

In response to the draft report, NWS and NESDIS concurred with the recommendation
that procedures be developed to verify the number of new monitoring/forecast products
that become operational annually before reporting results. However, the NWS did not
concur with the recommendation to revise FY 2001 results and adjust performance
targets for the FY 2003  APPR    as the NWS maintains that only four new products were
developed during FY 2001. However, it recognizes a lack of a common definition for a
new product at CPC resulted in confusion as to the number of products to be reported.
The National Climatic Data Center (NCDC) will work with CPC to develop and
disseminate a definition of "operational monitoring/forecast product" and will
incorporate that definition in future reporting of new operational monitoring/forecast
products.

E. OIG Comments

We commend NWS for its plans to develop and disseminate an improved definition for a
new product for this performance measure. The planned efforts ofthe NWS to eliminate
the confusion as to the definition of a new product, are consistent with the intent of our
recommendations. As such , we have eliminated the recommendation for NWS to revise
FY 2001 results and adjust performance targets for the FY 2003        AP P R.
  u.s. Department of Commerce                                              Final Report No. FSD- 15643- 0001
 Office of Inspector General                                                                    September 2003



 VII. New Climate Observations Introduced


 The Office of Oceanic and Atmospheric Research and NESDIS are
 expanding their climate observation systems as part of NOAA' s efforts
 to improve its climate monitoring and prediction capability. This
 measure is intended to record the number of new monitoring systems
 deployed or made operational during the fiscal year.

 We examined NOAA' s FY 2001 results , which report on deployment of
 the Argo network-a global array of free- drifting floats that measure
 temperature and salinity of the upper 2 000 meters of the ocean.
 Deployment ofthe floats began in FY 2001 , and will ultimately number
   000.

NOAA' s FY 2001 target for this measure was 120 floats , and it reported
introducing 132 , thereby exceeding its goal. However, we found this
number was inaccurate: it identifies the number of Argo floats budgeted
for procurement , not deployed. In addition , the discussion of the
measure refers to other observation systems as well (i. , buoys , ships
and satellites). In response to these and other concerns we raised
NOAA began exploring alternative presentations ofthis measure prior
                                                                                                 Argo float.
to the conclusion of our audit. We encourage this effort and believe our                         Source:   Ocean us
findings here can help direct the search.

A. Reported results are inaccurate

The 132 Argo floats reported as deployed in FY 2001 actually represent the number
budgeted in FY 2000. Actual procurement occurred in FY 2001; the total purchased was
130 (owing to price increases). NOAA deployed 20 ofthe 130 in the year of purchase
and deployed the remainder in fiscal years 2002 and 2003.

Because NOAA does not explain in the                      FY 2001 APPRIFY 2003 APP 
        that it is reporting
the number of floats budgeted for procurement rather than deployed, the reader is led to
believe that 132 floats have been newly put in place or made operational , and that the
process is therefore well ahead of where it actually is. No one verified the accuracy of
the performance results prior to its publication in the 
                      APPRIAPP and NOAA could not
readily produce documentation to support the number of floats deployed. In discussing
verification in the 
        APPRIAPP NOAA states that it "performs quality assurance analysis
but this procedure is applied only to the data coming from the floats-the results are not
verified, although the reader is led to believe otherwise. To ensure the quality, integrity,
and validity of reported data , NOAA needs to be clear about the quality control
procedures it performs , implement stronger quality controls , and have supporting
documentation readily available.
     u.s. Department of Commerce                                      Final Report No. FSD- 15643- 0001
     Office of Inspector General                                                         September 2003

                             FY 2001 NEW CLIMATE OBSERVATIONS INTRODUCED




                       140

                       120

                       100


         Argo Floats




                              Reported             Procured              Deployed



 B. Measure does not accurately convey what is being reported.

The title of the measure and its accompanying narrative imply that NOAA is counting
multiple climate observation systems or products , and specifically mentions data buoys
and new satellites , when in reality the reported number is measuring the introduction of
Argo floats only. NOAA had other weather monitoring products deployed during
2001 , including nine "Argo Equivalents ,,16 and weather platforms for the climate
reference network. In FY 2002 , NOAA deployed an even greater variety of new
observing equipment including ocean reference moorings and carbon flux monitoring
sites , but does not include them in the results reported for this measure , and therefore
limits its usefulness. If NOAA plans to report only on Argo float deployments , it should
revise the measure and discussion accordingly. If not , NOAA should include all new
observation equipment deployed.

C. Recommendations


The Under Secretary of Commerce for Oceans and Atmosphere should ensure that
NOAA takes the following actions:

       (1) Reevaluates the usefulness of this performance measure , and revises the

           discussion of results in future performance reports to include appropriate

           disclosures that clarify and enhance meaning.


       (2) Establishes procedures for reporting only appropriate fiscal year results
           developing and maintaining adequate support documentation, and reconciling
           performance data with documentary evidence.




16
  Argo-equivalent floats are essentially Argo floats that have been deployed and/or programmed
differently.
u.s. Department of Commerce
                                                            Final Report No. FSD- 15643­
 0001
Office of Inspector General

                                                                              September 2003


D. NOAA Response
In its response to the draft audit report , OAR concurred with both recommendations. In
future reports containing performance information , this measure will be adjusted to
reflect only deployed ocean observing instruments and platforms. Also
                                                                            , OAR will (1)
establish procedures for reporting only appropriate fiscal year results , (2) develop and
maintain adequate supporting documentation, and (3) reconcile performance data with
documentary evidence.

E. OIG Comments

We are encouraged by the OAR response as it indicates a commitment on the part of
OAR to improve the reporting of this performange measure.
                                                                ......




                                                                                                             APPENDIX I
                                                   oJ' "'	
                                                   !O"T OF Co




                                             "i,
                                             f!l




                                                   ~4J'es of ~
                                                                    'i1,   UNITEC STATES CEIPARTMENT OF. COMMERCE
                                                                           National Oceanic and Ai:mospheric Administration
                                                                           NOAA FINANCE AND ADMINISTRATION
                                                                           CHIEF FINANCIAL DFFlCERlCHIEF ADMINISTRATIVE OFFICER




                                                                                                  JUL 1 4 2003



             MEMORANDUM FOR:	             Johnnie E. Frazier
                                          Inspector General
             FROM:	                       Helen Hurcombe
                                          Acting Chief Financial Officer/
                                          Chief Administrative Officer

            SUBJECT:	                     Improvements Needed in the Reporting of Performance
                                          Measures Related to Goalsfor Advanced Short- Term
                                          Warnings and Implementing Seasonal to lnternannual
                                          Climate Forecasts
                                          Draft Audit Report No. FSD- 15643- 0001lJune 2003


            Attached is the National Oceanic and Atmospheric Administration s response to the
            Office of Inspector General' s draft audit report on the selected performance measures at
            the National Weather Service. The response has been prepared in accordance with
            Department Administrative Order 213­

            We apprecIate the opportunity to respond to your draft a~~~t                report.


            Attachment




Printed on Recycled Paper
                                                                                                               ...."..          - -.'.
                                                                                                                       . ..,...~--"','~..
                                                                                                                    . ..




                   Nationa1 Weather Service (NWS) Response to the

                 Office of the Inspector Genera1 (OIG) Draft Report

                          No. FSD-15643-3-0001 , June 2003


      Improvements Needed in the Reporting                                     of Performance       Measures
            ReLated           to    GoaLs    for   Advancing Short-Tezm Waxnings                     and
            ImpLementing SeasonaL                    to     InterannuaL CLimate Forecasts


                                         Observations and Conc1usions



Overall Comments


Overall, the tone and tenor of ' the draft OIG report is too negative
compared to the relatively minor significance of the findings and

recormnendations . In most cases, NOAA was already aware of the issue
and had implemented . corrections prior to or during the IG Audit.
The IG report should include more information and details . on the
extensive processes used by NOAA to ensure the accuracy of performance
information. For example, the NWS conducts site visits and maintains
extensive documentation to verify the accuracy of weather warnings.
In addition, the NWS maintains a centralized tracking database for
performance information with automated quality
database was established in response to
                                                           This                         controls.
                                           previous IG Review. The IG
Report shoul~ reference some of these important operational policies
and proced~es to give the reader a more balanced view.
NOAA is also concerned about the sample siz~-tised to examine
performance data for the tornado and flash flood lead times. For
example, the IG report notes a recording              out of 20 tornado    error in l
warnings and concluded the error was an internal control weakness and
could impact the accuracy of National performance information. While
every system is. subje9t to human er ror, the IG sampling method was not
statistically significant and may overstate the extent of the

recording errors.
                                                                                    (%),
   . -




                  Response to OIG Draft Report No. FSD-15643-3-0001/June 2003



Findinq I - Performance Measure: Lead  time (minutes), accuracy
and false alarm rate (FAR, %) for severe weather warnings for
tornadoes.
Recommendations - The Under Secretary of Commerce for Oceans and
Atmosphere should ensure NOAA does the following:

1.   Provides performance data to reflect the . percentage of
which the public is not provided a warning in time to take
                                                                               events in
precautionary actions.
NWS Response:  NWS concurs . NWS will develop a new p erformance
measure to augment our current set of measures. The new measure, in
concert with existing measures, should provide a clearer assessment on
performance without focusing solely on zero lead                  times.
                                                           NWS will also
expand disclosure information in future Annual Program Performance
Reports (APPR) and Annual Performance Plans (APP) regarding tornado
lead times.

Target Date of Completion:                 NOAA'   s FY 2005 APP (October   2003)

2.   Strengthens internal controls over performance reporting, to
include a p6licy for maintaining accurate supporting documentation and
procedures ~or reconciling data prior to reporting.

NWS Response:              NWS and NOAA    concurs.
                      Section I B, paragraph 1, states a performance result was

                      incorrectly recorded by NOAA headquarters prior to

                      submission to the Department in the FY 2002 Performance and

                      Accountabili ty Report. NOAA Headquarters will implement

                      quality control and review improvements to prevent future

                       recording errors.
                       Section I B, paragraph 2, notes one instance where - an event
                       time for a tornado reported by a WFO was incorrectly entered
                       into the database.   While the sample size for this finding
                       is very limited and does not provide a representative
                       sample, NWS will add language in NWS Instruction 10- 1605,
                       Storm Data Preparation, to reemphasize the need for accurate
                       entries in Storm    Data.NWS will also develop a process to
                       spot- check storm data entries for accuracy.
                      Section I C, regarding document retention, the NWS will
                      modify NWS Instruction 10-1605,. Storm Data, to include a
                      requirement for retaining all documentation used for the
                      production of Storm Data for two years.
                                                                                     N'.........





Target Date of Completion:


                 September 30, 2003, or three months from release of OIG

                 Final Report


                 September 30, 2003, or three months from release of OIG

                 Final Report


3.   Revises the presentation of the measure to include all appropriate
disclosures to make the discussion of results more clear and
meaningful.
NWS Response:        NWS concurs. Section I D, states NWS needs to
establi~h written guidelines ' to       fully disclose '   source and   quality of
data. NWS agrees and has already modified the description for this
measure in the draft NOAA FY 2005 APP.             This information will continue
to be reported in future submissions.

Target Date of Completion:           NOAA'   s FY 2005 APP (October   2003)

4.
software--
           Takes other appropriate actions--such as upgrading systems and
                to facilitate and ensure the reporting of accurate data.

NWS Response:        NWS concurs.


                 ~S has  already t~ken significant steps to facilitate and
                 ensure the accuracy of reporting~ata. As noted in the DIG
                 report, NWS has implemented automated algorithms, entitled
                 Rule 1 and Rule 2, to , ensure
                                              accuracy of performance
                information and provide WFOs with real- time feedback when
                errors are detected in       warnings.
                                                    Pages ii, iii, and 9 make
                reference to a temporary suspension of quality control
                procedures for the FY 2002       data.
                                                    However, in the transition
                from manual. to automated quality control, Rule 1, an
                automated procedure to check for warning coding and format
                 errors, was in place (see Appendix). We agree Rule 2, an
                automated procedure to quality control overlapping and
                corrected warnings, was implemented before the final FY 2002
                numbers were calculated, ensuring the accuracy of data. We
                recommend the OIG report reference the implementation of
                Rule 1 in January of 2002 and qualify the wording regarding
                the suspension of control checks. '

                New software is scheduled for inclusion in AWIPS Operational
                Build 2, scheduled to be released in December         2003.
                                                                      The
                software will include a Valid Time Event Code (VTEC)
                capabili ty which will allow tracking of warnings by event

                number and identification of every warning as new or

                corrected.   Quality control checks have also been added to
                 the software that generates warnings. These checks include
                warnings.
                 safeguards to ensure proper coding and formatting of

Target Date of Completion:


                Completed. Rule 1  implemented January 2002; Rule 2
                implemented December 2002.

                AWIPS Operational Build 2 in December of    2003.

Findinq :I:I - Performance Measure: Lead time (minutes) and accuracy
 (%) for severe weather warnings for flash floods.

Recommendations - The Under Secretary of Commerce for Oceans and
Atmosphere should ensure NOAA does the following:

1.   Provide performance data to reflect the percentage of events in
which the public is not provided a warning in time to take
precautionary actions.
NWS Response:  NWS concurs. NWS will develop a new performance

measure to augment our current set of measures. The new measure, in
concert with existing measures, should provide a clearer assessment on

performance without focusing solely on zero lead times. NWS will also

expand disclosure information in future Annual Program Performance

Reports (APPR) and Annual Performance Plans: (APP) regarding flash flood
lead times.

Target Date ~f Completion:          -NOAA' s FY 2005 APP (October   2003)

2.   Strengthen internal controls for the performance measure, to
include a policy for maintaining accurate supporting documentation and
procedures for reconciling data prior to reporting.

NWS Response:       NWS concurs.


                Section II B, bullet 1, regarding mixing of flash flood and
                flood data, NWS has already issued policies to address this
                issue. ' The policy prohibiting issuance of flash flood
                warnings for general area flooding was implemented. on
                August 6, 2001. Definitions for flash floods and floods are
                contained in NWS Instruction 10- 950, September 26, 2002.
                Policy to include flash flood warnings only and flash f~ood
                events only in the NWS flash flood verification program was
                established with issuance of NWS Instruction 10~1605,
                January 6, 2003.

                Section II B, bullet    2, incorrect event times:NWS will add
                language in NWS Instruction 10- 1605, Storm Data Preparation,
                to reemphasize the need for accurate entries in Storm Data.
                NWS will develop process to spot-check storm data entries
                for accuracy.
                                                                             ..




                                                                                  u.., ..­





                Section II C, supporting document retention: NWS will

                modify NWS Instruction 10- 1605, Storm Data, to include a

                requirement for retaining all documentation used for the

                production of Storm Data for two years.


Target dates of completion:


                Completed January 6, 2003


                September 30, 2003, or three months from release of OIG

                Final Report


                September 30, 2003, or three months from release of OIG

                Final Report


3.   Revise the presentation of the measure to include all appropriate
disclosures to make the discussion of results more clear and
meaningful.
NWS Response:       NWS concurs. Regarding Section II D, establish written

guidelines to fully disclose source and quality of data, NWS has

modified descriptions in our portion of NOAA' s FY 2005 APP to disclose

what the data represents. This information will continue to be
reported in future- submissions.

Target Date./9f Completion:        NOAA' s FY 2005 APP (October   2003)
4.   Take other appropriate actions--such as=upgrading systems an
software--to facilitate and ensure the reporting of accurate data.

NWS Response:       NWS concurs.   Section II B, bullet 4, warning
mistakenly issued:
                NWS has already taken significant steps, to facilitate ' and
                ensure the reporting of accurate data. As noted in the OIG

                report, NWS has implemented automated algorithms, entitled

                Rule 1 and Rule 2, to ensure accuracy of performance

                information and provide WFOs with real- time feedbaak when

                errors are detected in warnings. Pages ii, iii, and 9 make
                reference to a temporary suspension of quality control

                procedures for the FY 2002   data.However, in the transition
                from manual to automated quality control, Rule , 1, an

                automated procedure to check for warning coding and format

                errors, was'in place  (see Appendix). We agree Rule 2, an
                automated procedure to quality control overlapping and

                corrected warnings, was implemented before the final FY 2002
                numbers were calculated, ensuring the accuracy of data. We

                recommend the OIG report reference the implementation of

                Rule 1 in January of 2002 and qualify the wording regarding

                the suspension of control checks.
                 New software is scheduled for inclusion in AWIPS Operational

                 Build 2 to be released in December 2003. It includes a
                 Valid Time Event Code (VTEC) capability which will allow
                 tracking of warnings by event number and identification, of
                 every warning as new or  corrected. Quality control checks
                 have been added to the software that generates warnings.
                 These checks include safeguards to ensure proper coding and
                 formatting of warnings.

 Target Date of Completion:


                 Completed. Rule 1  implemented January 2002; Rule 2
                 implemented December 2002.

                 AWIPS Operational Build 2 in December 2003.


 Finding III - Accuracy (%) of three- day forecast of precipitation.


 Recommendations - The Under Secretary of Commerce for Oceans and
 Atmosphere should ensure that NOAA in subsequent reports:

 1. Note that the FY 2001 results did notoccur.
precipitation was forecasted but did not
                                          '       reflect area~ where


NWS Response;  NWS concurs. NWS had recognized the limitations of

this measur~ and decided to replace the measure in December 2001., The

change was reflected in the FY 2003 NWS Annual Operating Plan with a

more useful measure entitled " threat score" which takes into account

areas where one inch or more of precipitation was correctly

forecasted, where it was forecasted but did not occur, and where it

occurred but had not been forecasted. Subsequent reports will explain

the change to this measure.


Target Date of Completion:         NOAA' s FY 2003 APPR (October 2003)

           State that the measure gauges forecasts of one inch or   more.
NWS Response:  NWS concurs. Subsequent reports will indicate this

measure gauges forecasts of one inch or more of precipitation


Target Date of Completion:         NOAA' s FY 2003 APPR (October 2003)

           Provide specific examples of data verification procedures.


NWS Response:  NWS concurs. Subseque~t reports will contain specific

data verification procedures for this measure.


Target Date of Completion:        NOAA' s FY 2003 APPR (October 2003)
                         /' .





       Finding IV - Determine the accuracy of the correlation between

       forecasts of the Southern Oscillation Index (SOI) and EI Nino/La Nina

      events.
     . Recommendations- The Under Secretary of Commerce for Oceans and

      Atmosphere should ensure that NOAA takes the . following actions:


      1.   Remove the performance measure or revise the title and include
      appropriate discussion in future performance reports.

      NWS Response: NWS concurs. NWS will amend the ti tIe and expand the
     explanation in the FY 2003 APPR. NOAA is also considering eliminating
     external reporting of this measure , in the FY 2005 APP. The measure
,    may be too technical for the broader NOAA climate audience. NOAA
     evaluating new performance measures for the NOAA climate program.

     Target Date of Completion:                NOAA' s FY 2003 APPR (October   2003)
     2.   If the measure is revised, include necessary disclosures and

     explanation of changes in the presentation in future APPRs.


     NWS Response:  NWS will expand the explanation and include a

     description of the changes in the FY 2003 APPR.


     Target Date of Completion:                NOAA' s FY 2003 APPR (October   2003)

     Finding V - U. S.             temperature forecasts (skil:l" score).
    Recommendations - The Under Secretary of Commerce for Oceans and

    Atmosphere should ensure that NOAA takes the following actions:


     1.  Revise reported resuits forFY' 1999 and FY 2000 and provide an
    explanation of the change from 36 to 48 months when reporting results
    for this measure in subsequent APPRs.

    NWS Response:  NWS concurs. FY 1999 and FY 2000 results have been
    recomputed based on a 48-month cumulative average and will be' provided
    in subsequent reports.

    Target Date of Completion:                 NOAA' s FY 2003 APPR (October   2003)
    2.   Disclose in APPRs that the measure is a cumulative average of 48

    seasons and does not cover the entire U. S.


    NWS Response:                NWS concurs. Areas where no forecast for surface

    temperature is made (i.e. , areas designated as " equal
                                                         chance " on the

    Climate Prediction Center seasonal forecast maps) arenot included in

    the computations for this measure. Subsequent reports will contain

    better explanation of this measure. By doing this, it meets the

    intent of Recommendation V- 3 below.

    Target Date of Completion:                NOAA' s FY 2003 APPR (October 2003)

    3.  Revise the title of the performance measure to Selected U. S.
   Temperature Forecasts (Skill Score), or consider using a new

   performance measure that will be more meaningful and easier to

   understand.
   NWS Response:              NWS concurs.    See response to Recommendation V- 2 above.


   Target Date of Completion:                NOAA' s FY 2003 APPR (October 2003).

   4.   Develop and enforce procedures for ensuring that performance
   is reviewed for accuracy prior to its inclusion in the APPR.
                                                                                    data

  NWS Response:  NWS concurs. The NWS Climate Prediction Center has
  already implemented improvements to ensure the accuracy of the
  performance data, including improved quality control procedures and
  additional personnel reviewing the data prior to inclusion in
  subsequent reports.

  Target Date of Completion:                 Completed February 2003



  Finding                 - Number of new monitoring or forecast products that become

  operational per year (cumulative).
 Recommendat1ons - The Under Secretary of Commerce for Oceans and

 Atmosphere should ensure that NOAA:


  1.  Develops procedures to verify the number of new
 monitoring/forecast products that become operational annually before
 reporting the resul ts .
 NWS and NESDIS Response: 
  NWS and NESDIS concur. ~OAA will develop and
   implement a consistent procedure to better define and quality control
   the number of new climate products. Of note, NESDIS has procedures to
   address this issue. When a new product is produced by the National
  Climatic Data Center (NCDC) and made available to the public, on- line
  and/or off- line, NCDC assigns a Federal Geographic ' Data Committee
   (FGDC) number to the product and adds the product to its product

  catalog. The product is then accessible through the NOAA National

  Data Center Online Store and via NCDC' s Web site. NCDC also maintains

, a record of new products by fiscal year with the associated FGDC

  number for audit verification purposes. NCDC will work with the

  Climate Prediction Center   (CPC) to develop and disseminate a
  definition of " operational monitoring/forecast product" and will

  incorporate that definition in future reporting of new operational

 monitoring/forecast products.


 Target Date of Completion:                  September 2003

                                                                                         -"'.""   ' ..".. -




   2.   Revises FY 2001 results and adjust performance targets for the

   FY 2003 APPR.


  NWS Response:  NWS does not, concur. Discrepancy in the number of new
  products reported by NOAA and revealed during the audit was due
                                                                   to the

  lack of a common definition for new products at CPC. NWS
                                                            maintains
  only four major new products were developed duringFY
                                                               The
  counting of separate components within the new products as unique
                                                                      2001.
  products led to a dramatic increase in perceived number of new
                                                                     new
  products during the audit. Once NWS has implemented an improved

  definition for a new product, this will eliminate the confusion.

  Target Date of Completion:                September 2003



  Finding VII - New climate observation               introduced.
 Recommendations - The Under Secretary of Commerce for Oceans and

 Atmosphere should ensure that NOAA takes the following actions:


  1.  Reevaluates the usefulness of this performance measure, and

 revises the discussion ' of results in future performance reports to

 include appropriate disclosures that clarify and enhance meaning.

 OAR Response:            OAR concurs.     In the FY 2003 APPR/FY 2005 APP OAR   will:
                      Adjust the perfor$ance measure to reflect all ~f the n~w, in
                      situ ocean ob~erving instruments ana platforms (profiling­
                      floats, drifting buoys , Volunteer ' Observing Ships, etc.
                      supporting seasonal to interannual climate prediction
                      actually being deployed, serviced, and/or equipped.


                      Report deployed vs. budgeted performance information and
                      expand on the explanation of this measure.

Target            Date of Completion:

                     NOAA'       FY 2003 APPR/FY 2005 APP (October 2003)
                     JSIOAA' s   FY 2003 APPR/FY 2005 APP (October 2003)
2.   Establishes procedures for reporting only appropriate fiscal year
results, developing and maintaining adequate support documentation,
and reconciling performance data with documentary evidence.

OAR Response:  OAR concurs. OAR will establish procedures for
reporting only appropriate fiscal year results, develop and maintain
adequate support documentation, and reconcile performance data with

documentary evidence. Of note, this recommendation refers to the

administrative monitoring and reporting of the performance measure and

not the scientific and technical quality control processing of the
data.  The scientific and technical quality control procedures are
conducted within an exhaustive process implemented according to 

international standards that have been developed in conjunction with

the operational centers and other users
                                         of the observations in the
United States and throughout the world.


Target Date of Completion:   NOAA' s FY 2003 APR/FY 2005 APP
                             (October 2003)
       ??
       ? ?
       /
       ?? ?,
          ?? 





(Fwd: (Fwd: Re: (Fwd: Revised Warning Document)))


                                                                                                                                                   APPENDIX
                       Subject: (Fwd: (Fwd: Re: (Fwd: Revised Warning DocumentJ))

                  Date: Mon, 30 Jun 2003 13:21:01 -0400

                 From: Donald Wemly .(Donald. W emly~oaa.goV?           hrternal '

          Organization: DOC/NOAA/NWS - National Weather Service

                    To: Nicholas Scheller .(Nicholas. Scheller~oaa. gov~

                        Steven Gallagher .(Steven. Gallagher~o~gov~

                        Sheila Beehler .(Sheila.Beehler~oaa.gov~


         Folks
        Here is the documentation for rule 


        Don

        -------- Original Message -------­

        Subject:  (Fwd: Re: (Fwd: Revised Warning Document))

        Date: Mon, 30 Jun 2003 09: 51: 28 -0400

        From: William Lerner ~William. Lerner~noaa.gov~

        Organization: DOC/NOAA/NWS - National Weather Service

        To: Dona~d Wernly ~Donald. Wernly~noaa.                                       gov~


        Don,

        This is the only thing I can                                  find.           ll check with Robb to see if he

        has anything else.
        Remember, there was never any disagreement about Rule 1 so there isn

        much of a paper trail.

        Bill


        -------- Originql Message -------­

        Subject: Re: (Fwd:  Revised Warning Document)

        Date: Fri, 21 Dec 2001 13:25:24 -0500

        From: " Brent Macaloney " ~Brent. Macaloney~noaa. gov~ .--.,

        To: Richard Smi th ~Richard. Smi th~noaa. gov~

        CC: William Lerner ~William. Lerner~noaa:. gov~, Robb Kookaby
        ~Robb. Kookaby~noaa. gov~

        References: ~3C221EOF.  735E8583~noaa.gov~

        Here ya go!
        -Brent
       William Lerner wrote:
            Brent,
            Can you          do     this?
            Richard Smith wrote:
                 Bill,
                 Would it ' be           possible          to        get a revised ' version               of the PDF document you
                 sent with Rules 1 and                          2?       would like       to       forward this             to      our offices,
                 but without Rule                        included        for now , and -       I    do    not have the capability
                 edi       the documen              t.
                 Thanks!
                 Rick


                                                                                                                                                    7/312003 12:22 pJ\
                                                      -(------
                                                      -(------
                                                      -(------

                                                            :::::,




OVERVIEW

        The number of overlapping and erroneous severe weather and flash flood warnings has
increased during the past few years. To try and reduce the impact on customers
                                                                               , and at the same
time more accurately measure what we issue, the performance branch has developed a set of
guidelines on how warnings will be archived. Examples are provided to show how the warnings
will be entered into our database. Note however these are only a few examples of what we
encounter daily.




RULE I. - HOW WARNINGS WILL BE ENTERED INTO THE DATABASE

     . All data imported into the warning database will be taken directly from the
warning. Data will not be entered into the database from any other information listed in
the header/text ofthe warning. See the examples below.

              WUUS53 KWSH 010000
              SVRWSH
                                                                     WARNING TYPE and WFO
             , DCCO01-003-00S- 010200-                               COUNTY and STATE WARNED
              BULLETIN - EAS ACTIVATION REQUESTED

              SEVERE THUNDERSTORM WARNING

              NATIONAL WEATHER SERVICE SILVER SPRING MD

              700 PM EST WED JAN 1 2001               -(------ DATE AND ISSUANCE TIME

             :-THE NATIONAL WEATHER SERVICE IN SILVER SPRING HAS ISSUED A
              * SEVERE THUNDERSTORM WARNING FOR.. .
                WASHINGTON COUNTY IN THE DISTRICT OF COLUMBIA
                JEFFERSON COUNTY IN THE DISTRICT OF COLUMBIA
                REAGAN COUNTY IN THE DISTRICT OF COLUMBIA




             MFH.
              * UNTIL 900 PM EST                                     EXPIRATION TIME

              * AT 700 PM CST.. . SILVER SPRING DOPPLER RADAR INDICATED A SEVERE
                THUNDERSTORM 2 MILES WEST OF ADAMS MORGAN.. . MOVING EAST AT 15


             THE SEVERE THUNDERSTORM IS CAPABLE OF PRODUCING...

               HAIL THE SIZE OF NICKELS


             LAT.. . LON 3778 9752 3748 9752 3749 9724 3785 9724
               ;;-.                                       . .




  Rule I. - Example

                      WUUS53 KWSH 010000

                      SVRWSH

                      DCCO01- 003   -   005- 0102 0 0­

                      BULLETIN - EAS ACTIVATION REQUESTED

                  TORNADO WARNING
                  NATIONAL WEATHER SERVICE SILVER SPRING MD

                  700 PM EST WED JAN 1 2001


                  THE NATIONAL WEATHER SERVICE IN SILVER SPRING HAS ISSUED A


                  * TORNADO WARNING FOR. 

                    WASHINGTON COUNTY IN THE DISTRICT OF COLUMBIA

                    JEFFERSON COUNTY IN THE DISTRICT OF COLUMBIA

                    REAGAN COUNTY IN THE DISTRICT OF COLUMBIA

                  * UNTIL 900 PM EST

                  * AT 700 PM CST. . . SILVER SPRING DOPPLER RADAR INDICATED A TORNADO
                    2 MILES SOUTHWEST OF ADAMS MORGAN.. . MOVING EAST AT 15 MPH.


                 LAT.. . LON 3778 9752 3748 9752 3749 9724 3785 9724

         Even though the text states that it is a tornado warning, this warning will be entered into
 the database as a Severe Thunderstorm Warning due to its being labeled an SVR in the product
 identification header. The product was issued as a Severe Thunderstonn Warning
                                                                                       and will be
 databased as a Severe Thunderstorm Warning.


 Rule I. - Example

                WUUS53 KWSH 010000

                TORWSH

                DCCO01-0 03- 0 05-0           09-021- 0 102 00­

                BULLETIN - EAS ACTIVATION REQUESTED

                TORNADO WARNING 

                NATIONAL WEATHER SERVICE SILVER SPRING MD

                700 PM EST WED JAN 1 2001 

                THE NATIONAL WEATHER SERVICE IN SILVER SPRING HAS ISSUED A


                * TORNADO WARNING FOR...

                  WASHINGTON COUNTY IN THE DISTRICT OF COLUMBIA

                  JEFFERSON COUNTY IN THE DISTRICT OF COLUMBIA

                  REAGAN COUNTY IN THE DISTRICT OF COLUMBIA

                  LINCOLN COUNTY IN THE DISTRICT OF 

                                                                   c::OLUMBIA
               * UNTIL 900 PM EST


               * AT 700 PM CST.. . SILVER SPRING DOPPLER RADAR INDICATED A TORNADO
                 2 MILES SOUTHWEST OF ADAMS MORGAN.. . MOVING EAST AT
                                                                      15 MPH.
               LAT.. . LON 3778 9752 3748 9752 " 3749 9724 3785 9724

       In this tornado warning, notice there are four counties listed in the body of the text and
five counties listed in the UGC code. In this case , the automated system will enter five tornado
warnings into the database , even though there are four counties listed in the body of the warning.
                                                              --~.




   Rule I. - Example 3

                    WUUS53 KWSH 010000

                     SVRWSH
                    DCC-001-00S-010200­
                    BULLETIN - BAS ACTIVATION REQUESTED

                    SEVERE THUNDERSTORM WARNING

                    NATIONAL WEATHER SERVICE SILVER SPRING MD

                    700 PM EST WED JAN 1 2001


                    THE NATIONAL WEATHER SERVICE IN SILVER SPRING HAS ISSUED A


                    * SEVERE THUNDERSTORM WARNING FOR...

                      WASHINGTON COUNTY IN THE DISTRICT OF COLUMBIA

                      REAGAN COUNTY IN THE DISTRICT OF COLUMBIA


                    * UNTIL 900 PM EST

                    * AT 700 PM CST.. . SILVER SPRING DOPPLER RADAR INDICATED A SEVERE
                      THUNDERSTORM 2 MILES WEST OF ADAMS MORGAN.. 

                    MPH.                                           . MOVING EAST AT

                    THE SEVERE THUNDERSTORM IS CAPABLE OF
                                                          PRODUCING...
                      HAIL THE SIZE OF NICKELS
                    LAT.. . LON 3778 9752 3748 9752 3749 9724 3785 9724

     . Notice in     the UGC header there is an extra dash before county PIPS. The UGC line
. should read DCCO01-005-010200- . This is an invalid warning
                                                              and will not be added to our
  warning datab~e.
              :J'




 Rule I. - Example 4

                WGUS56 KWSH 010000

                FFWWSH
                DCCO01- 005-010200­
               BULLETIN - BAS . ACTIVATION REQUESTED
               FLASH FLOOD WARNING

               NATIONAL WEATHER SERVICE SILVER SPRING MD

               700 PM WED JAN 1 2001


               THE NATIONAL WEATHER SERVICE IN SILVER SPRING HAS ISSUED A


               * FLASH FLOOD WARNING FOR...

                 WASHINGTON COUNTY IN THE DISTRICT OF COLUMBIA

                 REAGAN COUNTY IN THE DISTRICT OF COLUMBIA


              * UNTIL 900 PM EST


              * AT 700 PM EST.. . WEATHER SERVICE DOPPLER RADAR INDICATED VERY
              HEAVY RAIN OVER ADAMS MORGAN. THE 

              STATIONARY.                          AREA OF HEAVY RAIN WAS NEARLY

              DO NOT DRIVE YOUR VEHICLE INTO AREAS WHERE THE WATER COVERS THE

              ROADWAY. THE WATER DEPTH MAY BE TOO GREAT TO ALLOW YOUR CAR TO

              CROSS SAFELY. VEHICLES CAUGHT IN RISING WATER SHOULD BE ABANDONED

              QUICKLY. MOVE TO HIGHER GROUND.

              LAT.. . LON 3321 11738 3267 11714 3289 11684 3319 11668
                                                           . .




       Notice in the " date and issuance time" line there is no time zone indicator. There is no
way to tell if this warning was issued in EDT , CST , or any other time zone. This is an invalid
warning and will not be added to our warning database.


Rule I. - Example   5

               WUUS53 KWSH 010000

               SVRWSH

               DCCO01- 005- 01020Q­


               BULLETIN - EAS ACTIVATION REQUESTED

               SEVERE THUNDERSTORM WARNING

               NATIONAL WEATHER SERVICE SILVER SPRING MD

               700 PM EST WED JAN 1 2001

               THE NATIONAL WEATHER SERVICE IN SILVER SPRING HAS ISSUED A


               * SEVERE THUNDERSTORM WARNING FOR. 

                 WASHINGTON COUNTY IN THE DISTRICT OF COLOMBIA

                 REAGAN COUNTY IN THE DISTRICT OF COLOMBIA





               MPH.
               * UNTIL 9005 PM EST

               * AT 700 PM CST. . . SILVER SPRING DOPPLER RADAR INDICATED A SEVERE
                 THUNDERSTORM 2 MILES WEST OF ADAMS MORGAN.. . MOVING EAST AT


               THE SEVERE THUNDERSTORM IS CAPABLE OF PRODUCING...
               ~IL THE SIZE OF NICKELS
               LAT. . . LON 3778 9752. 3748 9752 3749 9724 3785 9724

       Notice in the expiration time" line th~t the time is not valid. This is an invalid warning
and :will not be added to our warning database.


Rule t - Example 6


               WUUS53 KWSH 010000

               SVRWSH

               BULLETIN - EAS ACTIVATION REQUESTED

               SEVERE THUNDERSTORM WARNING

               NATIONAL WEATHER SERVICE SILVER SPRING MD

               700 PM EST WED JAN 1 2001


               THE NATIONAL WEATHER SERVICE IN SILVER SPRING HAS ISSUEDcA


               * SEVERE THUNDERSTORM WARNING FOR...

                 WASHINGTON COUNTY IN THE DISTRICT OF COLOMBIA

                 REAGAN COUNTY IN THE DISTRICT OF COLOMBIA


               * UNTIL 900 PM EST


               * AT 700 PM CST. . . SILVER SPRING DOPPLER RADAR INDICATED A SEVERE
                 THUNDERSTORM 2 MILES WEST OF ADAMS MORGAN.

               THE SEVERE THUNDERSTORM IS CAPABLE OF PRODUCING...
               HAIL THE SIZE OF NICKELS
               LAT.. . LON 3778 9752 3748 9752 3749 9724 3785 9724
                                                  , ,.".                    . ,....
                                                                          , '       ------
                                                                               ..-. ---- ,..,--
                                                                                             -,-.




         In this example, the UGC code is missing. The automated warning
                                                                                 databasing system can
  database.
  not identify the counties. This is an invalid warning and will not be
                                                                          added to our warning



 Rule I. - Example 7

                WGUS56 KWSH 010000

                FFWWSH

                DCCO01- 0S- 010200­

                BULLETIN - BAS ACTIVATION REQUESTED

                FLASH FLOOD WARNING

                NATIONAL WEATHER SERVICE SILVER SPRING MD

                700 PM EST WED JAN 1 2001


                THE NATIONAL WEATHER SERVICE IN SILVER SPRING HAS ISSUED A


                * FLASH FLOOD WARNING FOR...

                  WASHINGTON COUNTY IN THE DISTRICT OF COLUMBIA

                  REAGAN COUNTY IN THE DISTRICT OF COLUMBIA

                * UNTIL 900 PM EST

               * AT 700 PM EST.. . WEATHER SERVICE DOPPLER RADAR INDICATED VERY
               HEAVY RAIN OVER ADAMS MORGAN. THE
               STATIONARY.                          AREA OF HEAVY RAIN WAS NEARLY

                DO NOT DRIVE YOUR VEHICLE INTO AREAS WHERE THE WATER COVERS THE
                ROADWAY. THE WATER DEPTH MAY BE TOO GREAT TO ALLOW YOUR CAR TO
              :::CROSS SAFELY. VEHIC LES CAUGHT IN RISING WATER SHOULD BE ABANDONED
               QUICKLY. MOVE TO HIGHER GROUND.

               LAT.. . LON 3321 11738 3267 11714 3289 11684 3319 11668

       Notice how the second county FIPS listed in the UGC line only contains two digits. All

wainlng database.
county PIPS must have three digits. This is an invalid warning and will not be added
                                                                                     to our
